<html>
<title> - HOW CLIMATE CHANGE THREATENS U.S. NATIONAL SECURITY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


          HOW CLIMATE CHANGE THREATENS U.S. NATIONAL SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 2, 2019

                               __________

                           Serial No. 116-22

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov

                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                              
                             
                                     
                Jason Steinbaum, Democrat Staff Director
               Brendan Shields, Republican Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               ASP LETTER

ASP Letter submitted from Chairman Engel.........................     3

                               WITNESSES

McGinn, Vice Admiral USN (Ret) Dennis V., Former Assistant 
  Secretary of the Navy for Energy, Installations, and 
  Environment....................................................    10
Goodman, Hon. Sherri, Former Deputy Undersecretary of Defense for 
  Environmental Security.........................................    18
Weisenfeld, Paul, Executive Vice President, International 
  Development, RTI International, Former Assistant to the 
  Administrator for the Bureau of Food Security, U.S. Agency for 
  International Development......................................    34
Worthington, Barry K., Executive Director, United States Energy 
  Association....................................................    45

                   ARTICLES SUBMITTED FOR THE RECORD

The Guardian article submitted for the Record from Representative 
  Lieu...........................................................    71
Climate Change article submitted for the Record from 
  Representative Lieu............................................    74
The Military Paid article submitted for the Record from 
  Representative Lieu............................................    80
CNN article submitted for the Record from Representative Omar....    94

                                APPENDIX

Hearing Notice...................................................   102
Hearing Minutes..................................................   103
Hearing Attendance...............................................   104

            ADDITIONAL INFORMATION SUBMITTED FOR THE RECORD

Information from Conservation International submitted for the 
  Record from Chairman Engel.....................................   105
Statement for the Record submitted from Representative Connolly..   110

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted from Representative Sires.......   112
Responses to questions submitted from Representative Smith.......   120

 
          HOW CLIMATE CHANGE THREATENS U.S. NATIONAL SECURITY

                         Tuesday, April 2, 2019

                           House of Representatives
                       Committee on Foreign Affairs
                                                     Washington, DC

    The committee met, pursuant to notice, at 10:03 a.m., in 
Room 2172 Rayburn House Office Building, Hon. William Keating 
presiding.
    Mr. Keating. The committee will come to order.
    Without objection, all members may have 5 days to submit 
statements, questions, and extraneous materials for the record, 
subject to the length limitation in the rules.
    This morning the committee will examine the national and 
international security implications of climate change. I would 
like to welcome our witnesses and welcome members of the public 
and the press as well. I will just give a brief opening remark 
I shared with the chairman of the committee, Mr. Engel, who 
will be here momentarily, but in convenience to the witnesses 
and members we will begin now.
    I will be doing this because our committee and our 
subcommittee deals with global environmental issues and foreign 
affairs. So let me begin with the shared remarks that I had 
with the chairman.
    Now, the national security concerns tied to climate change 
are nothing new to the U.S. Government. In fact, government 
researchers across disciplines and across administrations of 
both parties have been taking a hard look at this challenge for 
decades. It was all the way back in 1988 that the 
Intergovernmental Panel on Climate Change was established. In 
2003, the Pentagon commissioned a report to examine how an 
abrupt change in climate would affect our defense capabilities.
    Its authors concluded that it should be evaluated beyond 
the scientific debate to a U.S. national security concern. It 
was uplifted to that level.
    More recently, in 2012 and 2014, the Department of Defense 
Climate Change Adaption Roadmap stated that climate, climate 
change can serve as ``an accelerant of instability or 
conflict.'' That could have a significant geopolitical impact 
and contribute to poverty, environmental degradation, the 
weakening of fragile governments, and food and water scarcity.
    In December 2017, the GOP-led Congress passed a defense 
bill that was signed into law with language stating that 
``climate change is a direct threat to our national security of 
the United States.
    And just this past January, the National Intelligence 
Director delivered a worldwide threat assessment that ``climate 
hazards'' include extreme weather, wildfires, drought, 
acidification of the oceans, threatening infrastructure, 
health, water and food security.
    Now, what are the real world implications of all these 
assessments and warnings? What does our warming global--our 
warming globe actually look like?
    Intensifying food and water insecurity.
    Population flows related to migration.
    Displacement and planned relocation.
    The inability of fragile States to anticipate and mitigate 
the impacts of climate change.
    Increased need for disaster relief and humanitarian 
assistance.
    Great Power competition resulting from the diminishment of 
Arctic sea ice and heightened conflict with and among States.
    These are problems that would generally demand the full 
focus of American foreign policy. You would think that getting 
at the root cause of such an alarming list of issues would be a 
major priority. The rest of the world thinks so. Every other 
country on this planet is party or signatory to the Paris 
Agreement aimed at curbing the greenhouse gases that drive 
climate change.
    The only country to announce its intention to walk away 
from that deal is, of course, the United States. To justify 
this misguided decision, the White House recently allowed--
announced plans to create an ad hoc group of select scientists 
to reassess the government's analysis of climate science. After 
years and years of Federal research that makes clear, makes a 
clear and strong case that climate change is a serious threat, 
the Trump administration is now desperately seeking to 
undermine the conclusions that the continued burning of fossil 
fuels is harming the planet and putting our Nation's security 
at risk. It is just astounding. It is bizarre.
    It is rare to see every country in the world rally around 
an issue, but there is one idea that just about everyone is 
aboard on: it is absolutely imperative that we grapple with the 
challenge of climate change. That the future or our very world, 
and American national security, depends on the actions that we 
take today, that we owe to future generations so that we do not 
turn our back on the tide, and we prevent that list of horrible 
consequences.
    Just about everyone, that is except certain members of one 
party in the United States, feels that way. And as a result of 
this small cabal with their heads planted firmly in the sand, 
the United States has rejected the clear science, ignored the 
growing threat, and walked away from its role as a global 
leader on this issue. I cannot help but wonder, 30, or 50, or 
100 years down the road when people look back at this era what 
they will be saying about the way the United States dealt with 
this problem. I do not think it will be very kind.
    I am entering into the record a letter signed by 58 former 
senior military and intelligence officials to the president 
warning him that imposing a political test on reports issued by 
the science agencies and forcing a blind spot onto the national 
security assessments that depend on them will erode our 
national security. It is dangerous to have national security 
analysis conform to politics.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Keating. Two of those officials, Admiral Dennis McGinn 
and Deputy Undersecretary Sherri Goodman, are here with us 
today, with Sherri having connections right to my district in 
Cape Cod. I look forward to their testimony and that of Mr. 
Weisenfeld and Mr. Worthington. I will soon introduce them.
    But we will first yield to our ranking member, Mr. McCaul 
of Texas, for any opening remarks that he might have.
    Mr. McCaul. Thank you, Mr. Chairman.
    Last year I was briefed by the head of sciences at NASA to 
discuss this important issue. And the national security 
assessments are clear, climate change poses risks to the 
security of the United States and the international community. 
The best way to address climate change, however, is less clear.
    President Obama's approach was to set unrealistic 
greenhouse gas reduction targets within the framework of the 
Paris Agreement that would have cost our economy a fortune, 
hurting working people living paycheck to paycheck. When 
President Trump announced his intention to withdraw from the 
Paris Agreement he also expressed an openness to reentering or 
renegotiating the deal on terms more favorable to the United 
States.
    I look forward to hearing from our witnesses about their 
recommendations for a way forward that appropriately balances 
the very real need to reduce greenhouse gas emissions in the 
United States and around the globe, especially in China, the 
world's No. 1 emitter, with the need for economic growth and a 
reliable affordable supply of energy.
    I come from one of the top energy-producing States in the 
largest oil and gas producing nation in the world. Our abundant 
national resources, including fossil fuels which product 80 
percent of the world's energy, not only support our economy and 
good-paying jobs, but they make us more secure as a Nation.
    Mr. Chairman, the committee is not in order.
    Mr. Keating. The ranking member is correct. The committee 
members will withhold their conversations to the empty room if 
they would have them.
    The chair recognizes the ranking member.
    Mr. McCaul. And I thank the chairman for that.
    We are fortunate that we do not depend on an energy 
supplier like Russia that uses its dominance in European gas 
markets to coerce and intimidate its neighbors. We are no 
longer at the mercy of the OPEC cartel for the majority of our 
oil needs. Instead, thanks to innovation and technology we have 
become a net energy exporter that offers our partners and 
allies a stable, reliable supply of energy resources.
    We have also been able to hold down prices for consumers, 
which contributes to domestic and global economic growth and 
prosperity. Many energy companies are taking great steps to 
shift to cleaner sources to reduce greenhouse gas emissions. 
This is taking place not necessarily because of government 
policy but despite it.
    From 2005 to 2017, U.S. greenhouse gas emissions declined 
by 14 percent. In 2017, U.S. greenhouse gas emissions were the 
lowest since 1992. China and India accounted for nearly half of 
the increase in global carbon emissions in 2017. And developing 
country emissions will continue to rise to the point that all 
of the United States and Europe's emissions will soon be far 
surpassed by other economies.
    I have witnessed firsthand the devastation brought to 
families in my State and district from flooding and extreme 
weather events like Hurricane Harvey. The recovery efforts are 
ongoing, and the impact will last well into the future. As the 
world's largest economy and preeminent power, the United States 
has a responsibility to help lead global efforts to address 
climate change based on realistic solutions as opposed to 
extreme unrealistic goals based on aspiration alone.
    With that, I look forward to the testimony of the witnesses 
and on how we can achieve that goal.
    And with that, Mr. Chairman, I yield back.
    Mr. Keating. The chair thanks the ranking member.
    Now I will have the opportunity to give a brief 
introduction to our witnesses who we are grateful for their 
presence here today. Thank you very much for taking the time to 
come.
    Vice Admiral Dennis McGinn served as Assistant Secretary of 
the Navy for Energy, Installations, and Environment from 
September 2013 until January 2017. Prior to that he served on 
active duty in the United States Navy for 35 years as a naval 
aviator, test pilot, aircraft carrier commanding officer, and 
national security strategist.
    As vice admiral he was Deputy Chief of Naval Operations and 
Commander of the United States Third Fleet.
    Admiral, thank you for being here and thank you for your 
service.
    Sherri Goodman is Senior Strategist at the Center for 
Climate Security, a member of its advisory board, and chair of 
the Board of the Council on Strategic Risks. She is also a 
Senior Fellow with the Woodrow Wilson Center. Prior to this, 
she was CEO and President of the Ocean Leadership Consortium, 
and Senior Vice President, General Counsel, and Corporate 
Secretary of CNA.
    From 1993 to 2001, Ms. Goodman served as Deputy 
Undersecretary of Defense and Environmental Security, the chief 
environmental, safety, and occupational health officer for the 
Department of Defense.
    Ms. Goodman, thank you for being here.
    Paul Weisenfield--Weisenfeld, I apologize, is Executive 
Vice President for International Development at RTI 
International, an independent, nonprofit research institution. 
He leads RTI's international development practice which designs 
and implements programs across a wide range of sectors to help 
lower and middle-income countries and communities address 
complex problems and improve the lives of their citizens.
    He earlier served as a foreign officer at USAID, leading 
high profile initiatives across various international 
development sectors.
    Thank you very much for being here. I know that the 
chairman will be pleased. You have met him in the past, and I 
am sure he will mention that.
    Last but not least, Barry Worthington is an Executive 
Director of the United States Energy Association, a U.S. member 
committee of the World Energy Council, and an advisory 
organization that represents 150 members across the American 
energy sector. He represents the broad interests of our 
country's energy industry, working to develop energy 
infrastructure projects around the world. He chairs the Clean 
Energy Production Working Group within the United Nations' 
Economic Commission for Europe, Committee on Sustainable 
Energy.
    Welcome again to all of you. Thank you for your time and 
expertise. And I will now recognize you for 5 minutes each to 
summarize your testimony. Let's start with Admiral McGinn.

 STATEMENT OF VICE ADMIRAL DENNIS V. MCGINN, USN (RET), FORMER 
ASSISTANT SECRETARY OF THE NAVY FOR ENERGY, INSTALLATIONS, AND 
                          ENVIRONMENT

    Mr. McGinn. Mr. Keating, Ranking Member McCaul, 
distinguished members of the committee, thank you for the 
opportunity to testify today on the critical impact of climate 
change on our national security. My views are based on over 35 
years of military service to our Nation in the United States 
Navy, as a former Assistant Secretary of the Navy for Energy, 
Installations, and Environment and, presently, as a senior 
executive intimately familiar with the issues of energy, the 
economy and our environment.
    As we start the conversation today I want to note that 
there are many ways that climate change threatens U.S. national 
security that are not the primary focus of this hearing. Those 
are the direct impacts on military bases and military readiness 
from recurring flooding at Norfolk Naval Shipyard, to the 
impacts of record rainfall and flooding at Camp Lejeune, to the 
evacuation of Naval Air Station Point Mugu as the Hill Fire 
approached the base.
    Climate change is already impacting our military 
installation readiness right here at home, and will to an even 
greater extent in the future. Today, however, our focus is on 
global threats and how changes in the climate will drive 
instability and, increasingly, create adverse geopolitical 
outcomes around the world.
    To set the stage, it is helpful to view some of these 
threats the way our senior military leaders do.
    First, they see more sources of conflict to which our 
forces may have to respond. The conflict may involve internal 
strife due to mismanagement of increasingly limited natural 
resources, or economic displacement. Or it may be conflict 
between States competing for limited water or food resources. 
We are increasingly seeing the prospect of conflict driven by 
control of rivers and the possibility of one nation trying to 
limit water to another.
    Second, they see climate-driven unemployment, displacement, 
migration, and despair, creating a pool of prospective recruits 
for violent extremist organizations. When a young generation 
has few prospects and seemingly nothing left to lose, terrorist 
organizations claim to offer them a way out.
    Third, our senior military leaders see the prospect to 
increase tensions in the Arctic. As the ice melts, as trade 
routes open up, and as more resources become accessible, we see 
both Russia and China moving to exert military and economic 
control over the high north.
    Fourth, our military leaders see a greatly increased and 
more frequent need to respond to humanitarian crises and 
natural disasters, especially in the Pacific and the Caribbean. 
These storms are devastating. They are deadly and they leave 
behind wreckage that can take years and, in some cases, 
generations to recover.
    So, clearly, the first step in combating the national 
security impacts of climate change are to recognize that we are 
already dealing with them.
    The next crucial step is to understand the serious 
implications for our future national security environment. We 
cannot now, nor as future challenges bear down on us, treat any 
of this as a surprise. We have a responsibility, therefore, to 
prepare for the changes we see coming, to lead and help shape 
the global environment to protect American interests in our 
national security. Current and future generations of our 
service members and, indeed, all Americans deserve our very 
best efforts.
    With that, Mr. Chairman, I would like to submit a more 
detailed statement for the record.
    [The prepared statement of Mr. McGinn follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Keating. Any objection?
    Thank you, you may submit that.
    Thank you for your testimony.
    Ms. Goodman.

 STATEMENT OF SHERRI GOODMAN, FORMER DEPUTY UNDERSECRETARY OF 
               DEFENSE FOR ENVIRONMENTAL SECURITY

    Ms. Goodman. Thank you, Mr. Keating, Ranking Member 
McCaul----
    Mr. Keating. Your microphone.
    Ms. Goodman. Thank you, Mr. Keating, Mr. McCaul, 
distinguished members of the committee, it is a pleasure to be 
with you today. Thank you for holding this important hearing. 
My views are shaped by my 30 years of experience as a national 
security professional.
    At the outset, I would like to acknowledge that while 
climate change discussions have been polarized, there has been 
one major exception, and that is security. The Chairman of the 
Joint Chiefs of Staff, General Dunford, Supreme Allied 
Commander of Europe, General Scaparotti, former Secretary of 
Defense, Jim Mattis, and many other senior leaders of the 
Department of Defense have been clear-eyed about this issue and 
the threat multiplier effect on our national security.
    The intelligence community has identified climate change as 
a security risk in every worldwide threat assessment for more 
than a decade, including the 3-years of this administration. 
Congress has passed multiple important provisions in the last 
two defense authorization bills, including a declaration that 
climate change poses a direct threat to the national security 
of the United States. Both were signed into law.
    I want to thank the members of this committee for their 
bipartisan support for these measures.
    Recently, I, Admiral McGinn, and 56 other senior military, 
national security, and intelligence leaders, who served across 
Republican and Democratic administrations, sent a letter to the 
President affirming the consensus view in the national security 
community that climate change is a threat to U.S. national 
security. Building on this consensus, I would recommend the 
Committee adopt a pragmatic view of the security threat that 
climate change poses and respond in a way commensurate to that 
threat.
    We need to acknowledge that the newly navigable Arctic 
Ocean is emboldening our adversaries. As the ice melts, Russia 
and China are increasingly moving to exert control and 
influence over the region. For example, Russia is building up 
its military presence in the north, and is seeking to monetize 
the Northern Sea route by proposing a toll road for military 
escort through shallow waters close to the Russian coastline.
    We should incorporate the impacts of increasing water 
scarcity as a result of climate change and other factors into 
our risk calculations for international conflict, especially as 
nations may increasingly be compelled to use water resources as 
leverage. For example, in the most recent escalation of 
tensions between India and Pakistan, India used the diversion 
of rivers as a threat. China holds similar leverage over India 
with the Indus River's origin in China.
    China may also respond to climate stresses by asserting 
itself more aggressively over shared resources in its region, 
such as fish stocks in the South China Sea that are moving 
northward as the sea warms.
    Further, China sees an opportunity for strategic benefit 
vis-a-vis the United States by investing in the climate 
resilience of countries in the Asia Pacific region and beyond. 
We should take note and not let China out-maneuver us.
    Climate stresses across Africa and the Middle East are also 
increasing economic and food insecurity, driving migration and 
forced displacement, making it easier for violent extremist 
organizations to recruit members and increase the likelihood of 
conflict.
    The good news, however, is that despite these unprecedented 
threats, we have unprecedented foresight capability. 
Technological advancements and more sophisticated predictive 
tools in both the physical and social sciences, and in the 
research and development capacities inherent in our many 
national security and civilian agencies, mean we can see more 
of these threats coming with a greater degree of reliability 
than ever before.
    The bottom line is that we have a responsibility to look at 
climate change and its impacts pragmatically in terms of 
America's national interests. We have a responsibility to 
account for the current and future climate change stresses in 
our security calculations, our planning, our foreign policy, 
and our investments overseas. And, we have a responsibility to 
prepare for the changes that we can see coming.
    That responsibility includes advancing a robust agenda for 
addressing security implications of climate change by reducing 
the scale and scope, investing in resilience of both energy and 
infrastructure, adapting to those effects that are already 
locked in, and supporting our partners and allies through 
American leadership in climate security.
    Thank you, Mr. Chairman. I ask that my written statement be 
submitted for the record.
    [The prepared statement of Ms. Goodman follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Keating. Thank you, Ms. Goodman. You were there right 
to the second. Unbelievable.
    Mr. Weisenfeld.

    STATEMENT OF PAUL WEISENFELD, EXECUTIVE VICE PRESIDENT, 
          INTERNATIONAL DEVELOPMENT, RTI INTERNATIONAL

    Mr. Weisenfeld. Mr. Keating, Ranking Member McCaul, 
distinguished members of the committee, thank you for the 
opportunity to testify today and for calling this hearing on 
such an important and timely topic. I have submitted my full 
written testimony for the record and will summarize it in my 
remarks this morning.
    Throughout my career in development at USAID and at RTI, 
International I have been honored to work on U.S.-supported 
programs related to agriculture, the environment, global 
health, democracy and governance, and more. The topic of 
today's hearing brings to mind two important truths that I have 
learned during my career. First, development affects U.S. 
national security and, second, climate change affects 
development.
    Put simply, American national security interests benefit 
when countries are stable, secure, and able to meet the basic 
needs of their citizens. This is why development, along with 
defense and diplomacy, is one of the three D's of U.S. national 
security.
    The best chance we have to promote resilience is to support 
development geared toward strengthening systems to withstand 
climate-related pressures. As USAID Administrator Green has 
said, the ultimate purpose of foreign assistance is to end its 
need to exist.
    Climate variability exacerbates the challenges facing 
developing countries and complicates local government's 
capacity to enable food and water security. Rising temperatures 
not only threaten crops, livestock, and water supplies, but 
also allow for the spread of diseases by expanding the 
habitable range of mosquitoes and parasites.
    The United States has been a leader in responding to these 
trends and promoting resilience in developing countries. For 
example, the U.S. Government's Feed the Future initiative_on 
which I had the privilege to work_has seen incredible success. 
This effort has helped more than 5 million families avoid 
hunger, and helped farmers generate $10 billion in new 
agricultural sales. I want to thank this committee for its 
steadfast support for this initiative.
    I have had the opportunity to speak with smallholder 
farmers and their families in Africa, Asia, and Latin America. 
When they talk about what most worries them, many say climate 
change. For these farmers and their families_and by extension 
their communities and countries_these changes can mean the 
difference between a life of dignity or one of desperation.
    Many organizations funded by the U.S. Government are 
working across the globe employing innovative and successful 
practices and technologies to promote resilience in the face of 
climate-related pressures. Introducing these innovations in 
impoverished areas helps farmers and herders adapt, and it can 
prevent communities from backsliding into hunger and conflict. 
Let me give a few examples.
    As part of a USAID-funded program in the Philippines, our 
team developed water resource maps for the conflict-prone 
island of Mindanao. The program revealed that the region's top 
agricultural exports_all of which are water intensive_were 
being planted in water-stressed areas. We provided suggestions 
for improving water management, thus protecting livelihoods in 
the face of climate-related risks.
    In Somalia, RTI, funded by USAID, implemented an innovative 
camel leasing model in response to recent droughts, helping 
herders protect their livestock and their incomes from climate-
related threats.
    In Souther Senegal, a Feed the Future project implemented 
by RTI is working to strengthen food systems for staple crops. 
This project installs solar-powered rain gauges, allowing 
insurers to accurately determine when farmers may be at risk of 
failed production. Equipped with this tool, smallholder farmers 
are more likely to invest in quality inputs that yield more and 
product better-quality products demanded by buyers.
    Organizations like mine are also stepping up. Through an 
internal investment, RTI is working in Rwanda to develop a 
model using drones and artificial intelligence to identify with 
greater precision which crops will grow and when, such as 
whether maize will grow in a certain region by 2030.
    When the United States invests in development, we are 
investing in security. When we partner with countries to 
strengthen food security, better manage natural resources, 
eliminate diseases, or strengthen democratic practices, we are 
helping them take ownership of building a stable and more 
secure future.
    To conclude, there is no doubt that drought, famine, or a 
disease outbreak will again threaten vulnerable populations in 
fragile countries. But this is not a losing battle. The United 
States has a record to be proud of. We have effective 
approaches that promote stability in developing countries in 
the face of climate change and other threats.
    This cannot be done without the United States Congress' 
continued support. I want to thank you again for your 
leadership and commitment on this issue.
    [The prepared statement of Mr. Weisenfeld follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Keating. Thank you, Mr. Weisenfeld.
    Mr. Worthington.

 STATEMENT OF BARRY K. WORTHINGTON, EXECUTIVE DIRECTOR, UNITED 
                   STATES ENERGY ASSOCIATION

    Mr. Worthington. Thank you, Mr. Keating. Good morning, 
Ranking Member McCaul, and other members of the Committee on 
Foreign Affairs.
    The U.S. Energy Association helps expand energy 
infrastructure in developing countries with the U.S. Agency for 
International Development, and we also contribute to policy and 
technical discussions with the U.S. Department of Energy to 
expand the use of clean energy technology around the world.
    Through our membership we represent over 100 companies and 
associations across the U.S. energy sector, from the largest 
Fortune 500 companies to single-person consulting companies, 
and everything in between. Our membership is both energy 
production and energy efficiency companies, but also 
engineering, finance, legal, research, and consulting 
organizations.
    Our objective is to convey information about the realities 
of global energy issues in the 21st Century. We are an 
educational organization both by function and by tax status.
    And, again, thank you for inviting me to appear before you 
today.
    The risk of climate change is real, and industrial activity 
all around the world is impacting climate. Addressing climate 
change is a challenge for our country. It affects every citizen 
in the world.
    While our industry addresses the changing climate, it 
continues to ensure that American citizens have access to 
increasingly safe, affordable, reliable, and clean energy.
    We have more than a billion global citizens, a billion 
global citizens with no access to energy, and another billion-
plus with inadequate access. Women in developing countries 
spend all day foraging for sticks and animal dung to generate 
energy for cooking, lighting, and heating. This is very 
dangerous. Burning firewood and animal dung indoors kills 
children, it causes asthma, and all kinds of other health 
problems. Access to energy provides improved health, education, 
and economic development. Considering a global population 
growth of another 2 billion people by mid-century, it leaves 
our energy industry globally to provide for 4 billion more 
energy consumers by 2050.
    Our industry's challenge is to double the provision of 
energy services globally, while reducing greenhouse gas 
emissions.
    Many of these new energy consumers all around the world 
will utilize fossil fuels because they are domestically 
available, they are abundant, and they are affordable. We 
should all work harder toward helping them use high-efficiency, 
low emissions technology. USEA members have volunteered for 
over 25 years in 50 countries to do this. Lack of adequate 
energy poses national security concerns for all countries.
    Domestically, our industry has undertaken a wide range of 
initiatives to reduce greenhouse gas emissions. We are very 
proud of our progress.
    Electric power carbon dioxide emissions have declined 28 
percent since 2005. Twenty-eight percent. We expect this trend 
to continue.
    Methane emissions from natural gas have declined over 18 
percent, even though we have increased natural gas production 
by over 50 percent in that same time period.
    We have invested over $120 billion in greenhouse gas 
emissions-reducing technologies.
    The solution to the dual challenges of climate change and 
global access to safe, reliable, affordable, and clean energy 
is technology. And an ``all of the above'' approach is 
necessary. Americans lead the world in innovation, and we can 
complete the energy revolution that began in earnest a decade 
ago. In the United States, increased U.S. domestic energy 
production has actually resulted in lower greenhouse gas 
emissions.
    And we can continue to do this without additional 
regulations. We do not need the Clean Power Plan. We do not 
need the Paris Accord. We would rather pay the engineers and 
technicians to reduce emissions than to pay the lawyers to 
prove that we are in compliance with a needless regulation.
    My written testimony cited the Chamber of Commerce's 
numbers on what the cost of complying with the Paris Accord 
would be.
    Other countries are today expanding their consumption of 
fossil fuels. Coal mines are being build in Russia and China, 
and dozens of other countries. They are going to release 
greenhouse gas emissions for the next 50 to 60 years.
    If we implement the Paris Accord, our economic competitors 
will access cheap energy while we force American consumers and 
industries to utilize high-priced energy.
    I pose the question: do our competitors having access to 
cheap energy while we are paying more, is that a threat to our 
national security?
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Worthington follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Keating. Thank you. I would like to thank all the 
witnesses.
    I will now recognize members for 5 minutes each to ask 
questions, starting with myself. All time yielded is only for 
the purpose of questioning the witnesses.
    I agree that there will be many new consumers, but I also 
know there will be many new industries to come out of the green 
and renewable energy sources where it would be great for the 
U.S. to have a competitive advantage in these new industries as 
others are no longer as cost competitive.
    But I would like to gear in on just the threats of specific 
countries perhaps with this important security issue. Climate 
change has been categorized as a threat multiplier which makes 
existing security risks even worse. Can you comment on how 
climate change impacts the challenges posed by Russia, China, 
Iran, and North Korea specifically?
    Any witness that--Admiral McGinn.
    Mr. McGinn. It is a great expression, Mr. Chairman, to say 
that the effects of climate change act as a threat multiplier 
for instability. If you look especially around the world 
between the tropics, you will find many fragile societies, many 
fragile governments that pushed a little bit further by the 
effects of natural disasters or food shortages, water 
shortages, flooding, any of the disasters that we are seeing 
increasingly and more frequent will cause them to fail.
    And into that failed state or society will rush all manner 
of bad people and bad effects. So, ultimately we see our young 
men and women in uniform now and in the future increasingly 
having to respond to those to protect the national security of 
the United States and our allies.
    So, in all of the countries that you mentioned there are 
aspects of this that are--they are dealing with internally. 
But, importantly, on the international stage Russia and China 
will fill any gap in leadership that the United States leaves 
as it relates to climate change mitigation and climate change 
adaptation.
    So, in fragile countries, fragile societies where China is 
making investment and increasing their resilience, that is 
something that the United States is losing.
    Mr. Keating. That has also been echoed by Secretary Hagel, 
Secretary Mattis. And do any other witnesses have any comments? 
Ms. Goodman.
    Ms. Goodman. Mr. Keating, members of the committee, I think 
the clearest example is the Arctic. Today we have a whole new 
Ocean that has become navigable because of sea ice retreating, 
permafrost collapsing, and temperatures rising. Russia is 
militarizing its portion of the Arctic in order to prepare for 
a future where it can control routes across the Arctic, as I 
mentioned, as a toll road and an economic highway to its 
economic and security advantages.
    China declared itself in 2018 to be a ``near Arctic'' 
stakeholder and has global ambitions in the region. It has 
declared that the sea routes across the Arctic are shorter than 
the current routes controlled by the United States through the 
Straits of Hormuz and the Straits of Malacca. And it will see 
advantage as those routes become increasingly navigable in the 
future.
    So I think this is a very clear example of an area in which 
we have seen increased geo strategic competition.
    Mr. Keating. Just quickly, you know 40 percent of the 
world's population lives within 100 miles of our coasts. And 
that affects so many other issues as well. So, I know, Ms. 
Goodman, you have spoken to this, but could you speak to how 
climate change and ocean acidification could disrupt food 
stocks like fish stocks and fish migration, and what these 
risks would be imposed to coastal communities, and the 
implication it might have not on just food supply but on our 
national security?
    Ms. Goodman. Yes, absolutely.
    We are seeing changes in fish stock migration moving 
northward. Areas that were once very abundant becoming over-
fished. Areas subject now to ocean acidification being less 
bountiful, but other areas further north and south in the poles 
becoming more abundant. That puts many of the communities in 
high intense urban areas in the mid latitudes at great risk, 
both across Asia and Africa, combined with extreme weather 
events from increased hurricanes, cyclones, and typhoons, which 
put many of these populations in increasingly fragile 
circumstances.
    Mr. Keating. Well, thank you.
    I will now yield to the ranking member for questions. Mr. 
McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    As I mentioned in my opening statement, I met with NASA 
scientists on this issue. They said, we are not policymakers, 
but we do want to show you what the data is reflecting.
    And I think as, Ms. Goodman, you point out that Africa, 
where I am particularly concerned about extremism, will 
continue to get drier and increasingly lack water. Having said 
that, I want to focus on what is realistic, sensible, 
achievable, and pragmatic here.
    President Obama pledged to cut greenhouse gases by 26 to 28 
percent by 2025. Mr. Worthington, to your knowledge was the 
private sector, including the energy industry, consulted prior 
to this?
    Mr. Worthington. To my knowledge there was no consultation 
with the energy industry.
    Mr. McCaul. And do you know if the Administration released 
a cost-benefit analysis or any sort of economic analysis to 
justify the numbers?
    Mr. Worthington. I have not seen any economic analysis 
relative to this issue that was done by the previous 
Administration, sir.
    Mr. McCaul. Do you know how many countries' legislatures 
ratified this agreement?
    Mr. Worthington. Many did. Not all, but many did. By far 
enough for the Paris Agreement to go into effect.
    Mr. McCaul. And I guess that is why we are having this 
discussion here. This, this Congress did not.
    Your organization did support President Trump's pledge to 
renegotiate the terms of the Paris Agreement. Other than just 
withdrawing or adjusting President Obama's terms, what terms of 
the agreement itself do you think could realistically in an 
achievable sense be renegotiated?
    Mr. Worthington. Well, I think the biggest concern that we 
have as an industry is the notion that we do not have a level 
playing field with our economic competitors. Our commitment to 
reduce greenhouse gas emissions by 28 percent has been met by 
the electric power sector in the United States. We have done 
that already.
    The entire energy industry hasn't, and other parts of the 
economy that contribute to climate change. Agriculture, steel, 
cements, and so forth have not made the gains that we made in 
electric power.
    But, you know, the Chinese commitment in the Paris Accord 
was basically that they would try. There was no percentage 
reduction insisted for China. They would, they would try. That 
was the best that they would commit to. So, in urging that the 
accord be renegotiated, we would like to see a level playing 
field where different countries around the world all had an 
opportunity to do the same type of emissions reduction that the 
United States was committed to.
    Mr. McCaul. I think, and I think that is a good point. I 
mean, Admiral McGinn, Ms. Goodman, it is only as good as--you 
know, it is a piece of paper signed but it is only as good as 
the enforcement mechanism.
    To Mr. Worthington's point, China is continuing to fire up 
a coal plant every week. And I would argue it is one of the 
biggest emitters of greenhouse gas.
    Mr. McGinn. Mr. McCaul, that fact, factoid of one power 
plant, coal fired power plant a week is, is old news. In fact, 
China has become one of the leadest--leading producers and 
exporters of green technology around the world. They did it for 
a variety of reasons. It could be argued whether or not tariffs 
was a factor there, but if you look at some of the major cities 
in China, and choking levels of air pollution, water pollution, 
land pollution, they see the imperative and they are living in 
many cases with the effects of climate change. And they 
recognize that they had to do something about it. And oh, by 
the way, that it was not a zero sum game. It was not, well, we 
can deal with climate change or we can have a strong economy. 
It is an ``and'' proposition.
    And the United States can do that as well. The creation of 
jobs over the last 10 years, if you do not compare us versus 
them, but if you compare the number of jobs created in green 
industries from energy efficiency, to solar, to wind, every 
aspect of it is multiple times more than the jobs created in 
the fossil fuel industry.
    Mr. McCaul. My time has run out. I know they have invested 
quite a bit in phototag technology and solar.
    And, Ms. Goodman, do you have any comment?
    Ms. Goodman. Thank you, Mr. McCaul.
    I would argue that combating the climate challenge is not 
only about American leadership in the advanced energy 
transition, which is indeed extremely important, but it is also 
about American leadership in climate resilience, predictive 
analytics, and a whole range of advanced technologies that will 
enable us to have resilient economies for the future.
    Energy is a piece of it, but there is quite a bit more in 
the built environment. And, as you have heard, I think also 
from scientists at NASA.
    Mr. McCaul. That is very good.
    I am going to close with_I had this discussion with Senator 
Lindsey Graham the other week. And he was talking about a 
Manhattan Project for clean energy. I think that is something 
that as we look at being productive here, instead of sparring 
in a partisan way, if we are trying to find solutions I think 
we should be looking at ideas like that as well.
    With that, I yield back.
    Chairman Engel [presiding]. Thank you. Thank you, Mr. 
McCaul.
    Let me get right to the questions. Repeated national 
security strategies adopted during the Obama and Bush 
Administrations listed climate change as a key threat facing 
the United States. On December 18th, 2017, President Trump 
unveiled a national security strategy which omitted climate 
change as a threat.
    So, let me ask Ms. Goodman and then Admiral McGinn, what 
are the consequences of striking climate change from our 
national security documents?
    Why do not we start with Ms. Goodman.
    Ms. Goodman. Thank you, Mr. Chairman.
    The consequence is that it makes it more difficult for our 
national security professionals and our military leaders to 
openly address the risk today. Many have spoken about it 
directly. And, it also makes it more challenging for American 
climate leadership to measure up to the other global leadership 
we believe is so important.
    This is a fundamental security challenge of our era. And 
only by being present and exerting our leadership will we be 
able to recognize and address those threats in a commensurate 
manner.
    Chairman Engel. Thank you.
    Admiral McGinn, based on your time in uniform, how do you 
think the military as an institution sees climate change?
    Mr. McGinn. I believe they see it, I know they see it as a 
tremendous challenge and a growing challenge, Mr. Chairman. 
And, ultimately, people in uniform are pragmatists. You cannot 
debate whether the intelligence about a mine field at sea or 
shore or whatever is supported by 75 percent of the 
intelligence, or 90 percent, or 10 percent, you act on what you 
know and what your best judgment tells you.
    And in our military, especially among our most senior 
military leaders who are on record talking about climate change 
as a significant growing national security challenge, they are 
saying we need to do something about it. We are doing something 
about it. And I think all the support that they can possibly 
get to do those things from the Congress is absolutely 
essential.
    Chairman Engel. Thank you.
    According to media reports, Cyclone Idai in Mozambique left 
nearly 2 million people in need of assistance. U.N. Secretary-
General Antonio Guterres, with whom we met, called it ``an 
uncommonly fierce and prolonged storm, and yet another alarm 
bell about the dangers of climate change.''
    Mr. Weisenfeld, how do increasing humanitarian emergencies 
caused by climate change affect how we provide development 
assistance to make communities more resilient?
    Mr. Weisenfeld. Thank you very much, Mr. Chairman, for the 
question.
    I think the recent events in Mozambique highlight the 
impact of extreme weather events and climate change on 
communities and countries with limited resources to deal with 
these kinds of challenges, and countries that are often prone 
to conflict. And we have seen devastating results of the 
cyclone in Mozambique. As you have said, it has spilled over 
into neighboring countries, into Zimbabwe for instance, where I 
had the pleasure to serve.
    Throughout my career I have seen that where there are 
crises like the cyclone in Mozambique, where there are crises 
like the earthquake in Haiti, the American people are 
extraordinarily generous and want to reach out and support 
vulnerable communities and respond to suffering. And that is 
something that I know will continue.
    But it is always much better, much more cost effective to 
get ahead of these problems. My fellow panelist Ms. Goodman has 
talked about the predictive analytic capabilities that are 
available these days, and having a better understanding of what 
is likely to happen and what kinds of preventive measures in 
terms of better construction, in terms of understanding how to 
manage water flow better, to limit the kinds of impacts that we 
are seeing around the world is something that requires strong 
investment. It requires sustained investment and, importantly 
U.S. leadership.
    We do have the tools. And we have the ability to get ahead 
of some of these problems in a much more cost effective way. 
Foreign assistance has shown that it is good value for money in 
providing preventative care, as opposed to the large expense of 
responses that are necessitated by those kind of humanitarian 
tragedies.
    Chairman Engel. Thank you.
    China is leading a global shift toward renewable energy. 
And for the third year in a row China has ranked first in the 
EY's renewable energy attractiveness ratings. It invested $126 
billion in 2018, which is three times that of the United 
States. It plans to invest nearly $360 billion by 2020, and an 
estimated $6 trillion by 2030. China is not only increasing 
domestic renewable investments but also extending investments 
into foreign countries, helping stimulate the global economy, 
and spreading its global influence.
    And we see this all over the world. But it is particularly 
troubling to see what China is doing vis-a-vis what we are 
doing.
    So let me again ask Ms. Goodman, and also Admiral McGinn, 
can you elaborate on the response China has had to climate 
change? Admiral, why do not we start with you.
    Mr. McGinn. In developing countries in Africa, Southeast 
Asia, China is there on the ground in many of them, obviously 
for their own strategic geopolitical purposes, but they are 
making investments in industries that relate to clean energy. 
They are making investments that increase resilience of those, 
those countries.
    And as was noted just a moment ago, a tremendous amount of 
the population of the Earth live very close to the oceans. And 
that makes them subject to sea level rise. But, importantly, it 
makes in the near term, it makes them subject to tidal surges, 
typhoons or hurricanes. And anything that can be done by a 
global leader like China, like the United States, that 
increases the resilience is an investment in the future.
    Chairman Engel. Thank you. Ms. Goodman.
    Ms. Goodman. Thank you, Mr. Chairman.
    China is on a global quest for resources to feed and power 
its domestic economy but also to expand its global influence. 
We see this across Africa, and throughout Asia and South 
America. We see this with increasing extraction of energy and 
mineral resources, and fish stocks, but also increasing foreign 
direct investment in countries from the Arctic to Africa and 
Asia that provide not only resources back home but leverage 
into economies of other countries for which American leadership 
needs to be present to counter that influence.
    Chairman Engel. Thank you very much. I appreciate your 
testimony.
    Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman.
    Mr. Weisenfeld, in your testimony you reference neglected 
tropical diseases, or NTDs, and you are focused on the need to 
have a holistic approach to development. Along with my 
colleagues Congresswoman Karen Bass and Congressman Greg Meeks 
of New York, I have introduced a bill, H.R. 826, that seeks to 
address NTDs. So I am particularly grateful for your and RTI's 
commitment to fight NTDs.
    And respectfully would ask that the chairman, our good 
friend Eliot Engel, look to mark this bill up ASAP. It has 
passed in this committee in the past, but then ran into some 
snags along the way. But my hope is that we take another shot 
at it this year, and soon, and could make a huge difference.
    But I would like to ask with regards to this particular 
hearing, with respect to global health: can you describe how 
climate change affects diseases of poverty, such as NTDs, 
especially in fragile States?
    And, second, how do intestinal worms in particular heighten 
susceptibility to co-infection, particularly among food 
insecure or malnourished people?
    Mr. Weisenfeld. Thank you very much for that question, 
Congressman. And thank you for mentioning the Neglected 
Tropical Disease program, the NTD program. RTI is 
extraordinarily proud, of being one of the organizations 
helping to implement the programs to eliminate neglected 
tropical diseases worldwide. We are very grateful for your 
leadership and the committee's leadership in supporting those 
efforts.
    As people may know, neglected tropical disease are diseases 
that blind, disfigure, and disable people around the world. The 
programs that this committee has supported have protected over 
a billion people worldwide from those diseases.
    They are also a great example of how strong U.S. leadership 
and focused programming could have a tremendous impact in 
moving countries toward resilience and self-reliance, as USAID 
Administrator Green says.
    The Neglected Tropical Disease programs are programs that 
have actually eliminated diseases as a public health threat 
from many countries in Africa, Asia, and Latin America. Those 
are the kinds of successes that you do not easily see every day 
in development.
    So, again, we thank the committee for its leadership. And 
we are proud to be a part of it.
    Regarding your question, I think one of the worries that we 
see around the world is that, as you see increased temperatures 
and extreme weather events, we are seeing the spread of 
diseases, particularly around increased temperatures. Rising 
temperatures allow for the expansion of diseases because they 
expand the range of insect vectors of disease, the range for 
mosquitoes, the range for parasites. So, you are seeing 
increased vectors for malaria, for chikungunya, for dengue, 
diseases that are in some cases fatal diseases that can really 
harm individuals. They affect the livelihoods of communities 
and families. They have a negative impact on overall economies. 
These diseases also affect not only humans but plants and 
animals. So they affect the larger food supply as well.
    Regarding your question on worms. One of the series of 
neglected tropical diseases is soil-transmitted helminths. We 
see an increase in that when people's immune systems are 
compromised, and in situations like the floods in Mozambique, 
or in the countries that are suffering from famine_in the last 
couple of years we have seen famine risks in Nigeria, South 
Sudan, Yemen, and Somalia. Where people do not have enough to 
eat, where they do not have enough to drink, where you see 
increased risk of cholera, it compromises the immune system and 
makes people much more susceptible to the potential for co-
infections.
    Mr. Smith. I appreciate that. Thank you very much.
    You know, I was the House sponsor of the Global Food 
Security Act. It passed the House three times. It did become 
law. And Betty McCollum was our chief co-sponsor, did a 
wonderful bipartisan effort on that. But I have always been 
concerned, I mean, I have seen the worms. As you know, since 
there are 1.4 billion people walking around with parasites and 
worms, seems to me that we need to do more on that. And our 
bill will certainly take us in that direction.
    But thank you for showing the correlation, if you will, 
between the two.
    Very little time left. But there is a great deal of support 
in this committee and in the Congress, bipartisan support, for 
Power Africa what are we doing to exacerbate or--is it neutral 
when it comes to concerns about climate change? How would you 
respond to it?
    Maybe, Admiral, you want to, or someone else.
    Mr. McGinn. I think we can do more. We are doing a lot 
basically driven by global terrorism, if you will, which finds 
some of its origins in North Africa in particular. But I think 
that we can do more in terms of working with the militaries and 
the national security organizations of those countries and 
showing them ways that they can become more resilient. More 
resilient to food shortages, or water shortages, or sea level 
rise, or tidal surges.
    And that is a gift that lasts for literally generations and 
changes people's lives. Clearly we are going to be there when 
there is a major humanitarian disaster. But being able to make 
those countries more resilient has a lasting effect. And our 
whole national security apparatus, not just the military but 
organizations like USAID can play a tremendous role in 
increasing the resilience of those countries.
    Mr. Smith. I am nearly out of time. But perhaps later on or 
for the record you can provide it, because I am talking about 
the electrical grid especially, to make sure that we are doing 
the right thing in terms of build-out.
    Chairman Engel. Thank you, Mr. Smith.
    Mr. Sherman.
    Mr. Sherman. Thank you. We have focused a lot on the 
physical effects of global warming and climate change. But 
there is also the reputational risk that we face being the one 
country that does not even pretend to be doing our share to try 
to stop it, at least not at the national level. Our hearing 
today is on national security. We can learn from the past.
    In World War I and World War II the winner was not 
necessarily the strongest country but rather the strongest 
alliance. For 70 years the United States has been the 
unquestioned leader of the most powerful alliance or network of 
alliances the world has ever seen. Now we have renounced the 
Paris climate change talks. We have announced that we won't do 
our agreed share.
    What effect does that have on our overall ability to hold 
together these alliances? Admiral?
    Mr. McGinn. I think it is a question, Mr. Chairman, of 
leadership and leadership by example. We are judged by what we 
do, not just by what we say. And we need to continue to be that 
global force for good that you pointed out has existed for over 
70 years since the devastation of World War
    And as you also pointed out, it is not just any one country 
or any one nation, it is an alliance of nations that come 
together around economic and democratic political values that 
are going to prevail against this newest challenge, this global 
existential challenge of climate change.
    Mr. Sherman. And I would point out our allies are 
democracies. So just having a few leaders at the top saying, 
``Well, we understand,'' does not measure the effect that this 
has long term on populations that will be there long after this 
or that leader leaves.
    Ms. Goodman, do you have any comment on how this affects 
our ability to keep the Alliances that have underlied, that 
have girded our national security?
    Ms. Goodman. Thank you, Mr. Sherman. I would observe that 
this week we are observing the 70th anniversary of the NATO 
Alliance, which has been foundational to American security 
during that period. I grew up during the cold war and spent my 
early years working on NATO matters and nuclear security as the 
fundamental security challenges of our era.
    I believe that climate change poses an equally fundamental 
security challenge today, and that American leadership, in 
conjunction with our allies and partners, is as fundamental to 
this challenge as it has been within NATO and to fighting the 
challenge that we face.
    Mr. Sherman. Thank you. I want to move on to one other 
issue, and that is China. They are subsidizing the export of 
panels, but they subsidize any manufactured good that they 
think is going to be relevant to the future, and they do that 
for their own economic interests, sometimes driving down 
industries in places like the United States.
    When it comes to climate change, they seem to be much less 
interested than in smog and particulate matter. And, of course, 
climate change, the effect of whatever you do is worldwide. 
They seem to focus on the very severe problems that they have 
breathing the air in their own cities. Now, China emits twice 
as much greenhouse gases as the United States. Of course, they 
have four times the population.
    They announced with pageantry that they are going to keep 
increasing their greenhouse gases right up until 2033--2030, 
and then we will see what happens after that.
    Other than reaffirm our own commitments in Paris, what can 
we do to get China to do more? I believe we have decreased our 
greenhouse gas emissions; they are increasing theirs.
    Mr. Weisenfeld, do you have a--which on the panel has a 
response? Looks like the admiral has a response.
    Mr. McGinn. I believe that we can compete so much more 
competitive--we can be so much more competitive in this energy 
transition from primary dependence on fossil fuel which, oh by 
the way, has been very, very good to the United States for over 
100 years. But now is the time to change.
    And the opportunity to change exists in our great 
technology, in our universities, in our business models. There 
is tremendous amount of capital that is waiting to be invested 
in this energy transition. And I think that that is one of the 
best ways that we can influence the behavior of China, by us 
producing ways in which they can maintain their quality of 
life, their economic growth, and in fact everybody can, but 
doing it with good technology and business models.
    Mr. Sherman. I will point out that I look forward to the 
day when there are more than a couple of vehicle recharging 
stations in the Rayburn garage. And I yield back.
    Chairman Engel. Thank you, Mr. Sherman.
    Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman. Ladies and gentlemen, 
thank you for being here.
    Mr. Weisenfeld, just curious, talking about natural 
disasters with some component of climate change in the mix 
there, are you familiar with the numbers over the last decade 
of deaths per 100,000 based on natural disasters? Is it going 
up generally or going down?
    Mr. Weisenfeld. I am not familiar with that data at the 
moment.
    Mr. Perry. OK.
    Mr. Weisenfeld. But I can look into it and get back to the 
Congress.
    Mr. Perry. I am a little familiar. And so I just want to, 
because all the stuff that is important to us is policy 
measures, trying to get the policies right. But it has gone 
down dramatically, dramatically per 100,000 over the last, over 
the last 100 years. And just in case you are interested or the 
audience is interested, most of the deaths occur from 
earthquake as opposed to flood, or drought, or hurricane, or 
something like that.
    So, when we talk about getting this policy right, all that 
stuff has to be considered. We do not want to just assume that 
natural disaster is occurring as a component of climate change 
and causing more deaths than they have in the past because that 
in fact is not the case.
    Mr. Worthington, the United States, as you know, has a vast 
amount of traditional resources. And under this, under this 
president, an energy dominance strategy associated with that. 
And I just want to get your thoughts on the World Bank's 
notable finding that China enjoys dominance in the arena of 
metal and rare earth metals in particular, which are required 
in many cases to supply the technologies for a carbon-
restrained or constrained future.
    From a national security standpoint, I mean, are we, are we 
playing right into China's hands by eschewing what we have in 
our country, literally hundreds of years of resources at our, 
at our availability, and into an economy based on what they 
have essentially, they dominated, dominating and continue to 
seek to be dominant in?
    Mr. Worthington. Thank you for that question, sir.
    There is evidence that exists that would suggest that we 
have traded our reliance on Mideast oil to a reliance on rare 
earth elements in China. And there is plenty of evidence that 
that is actually what has happened and is continuing to happen.
    We do have abundant domestic resources. By increasing our 
domestic fossil energy production, that has actually allowed us 
to reduce our CO2 emissions in the United States. And the 
notion that we should become dependent on China, or any other 
country for that matter, on rare earth elements is just a road 
that we should not be going down. But, nevertheless, that is 
the road that we are going down right now.
    Mr. Perry. So, as a general, if we recognize that and 
generally agree, what is the solution set for America? Does the 
solution set include more involvement in rare earth mineral 
rights and industries? Or is it, is it reliance more on what we 
currently have in our country? Or is it a combination of the 
two? What should our strategy be vis-a-vis our probably 
greatest geopolitical adversary?
    Mr. Worthington. Well, like so many other aspects of the 
economy, diversity is a key strength. And we need to develop 
rare earth elements here in the United States. There are 
abundant supplies of rare earth in coal, for example, and that 
can be byproducts of mining coal.
    We also need to work with other countries that have 
resources that are other than China to help them develop their 
rare earth element resources as well.
    Mr. Perry. Is this something that we have constrained 
ourselves to, or is there something that stops us from 
developing the rare earth industry in the United States and 
abroad on behalf of the United States?
    Mr. Worthington. I do not think it was a deliberate policy 
decision. I think we kind of blundered down this path because, 
you know, China is cheap. And so we, instead of developing our 
own resources we kind of got seduced into a set of 
circumstances where we are buying on the cheap, and that means 
buying from China.
    Mr. Perry. All right. Thank you, Mr. Chairman. I yield.
    Chairman Engel. Thank you, Mr. Perry.
    Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman. Thank you for holding 
this hearing. I am most impressed by the witnesses. I really 
want to thank Ms. Goodman and the Admiral for signing onto the 
letter to the president on this topic. I share your concerns. I 
think he is moving us absolutely in the wrong direction, not 
only by pulling out of the Paris Climate Accords but by not 
recognizing climate change in the national security strategy.
    We have heard a lot this morning about how climate change 
is a threat multiplier, and it has been mostly in relation to 
China and Russia. But I would like to talk about those fragile 
States and how they become vulnerable to terrorist recruitment. 
We have seen a lot of evidence, and I will ask you to comment 
on some of this, where areas that are, their lives, people's 
lives are upset by lack of water, lack of food, just general 
instability, people are ripe for recruitment.
    We have seen this in Iraq with ISIS. We have seen it in the 
Lake Chad area with Boko Haram. We have seen it across the 
Sahel in Mali, Islamic groups there have used that instability 
to provide resources and to encourage people to join their side 
because they can address these issues. Would you say that that 
is accurate? Do you have, have you seen other examples of this?
    And do we consider the impact of climate change enough as 
we try to develop a strategy to deal with terrorist recruitment 
around the world? I would ask the admiral and Ms. Goodman to 
start with that.
    Mr. McGinn. Well, as you know, around the world there are 
many, many divisions along, that have been there for centuries 
in some cases: economic divisions, cultural, religious, 
political. And what the effects of climate change do is it puts 
a magnifying glass over some of those divisions so that when 
you have a societal crisis like food shortage or water shortage 
or a major natural disaster, that just exacerbates the 
situation and causes those divisions to escalate to the point 
of armed conflict in many cases, which can spread to even 
regional conflict.
    So, recognizing that this pressure on fragile societies and 
fragile governments will cause many of them to fail, are there 
some things that we can do to increase their resilience so that 
they are not as dependent on one aspect of coastal farming, for 
example, in Bangladesh. Or that if, not if but when the next 
typhoon strikes there is going to be an ability to evacuate 
people to higher ground so that you can avoid the kind of mass 
migration toward India that could cause a major regional 
problem.
    So there are--I would say the word that we need to focus 
on, how can we help nations help themselves to become more 
resilient and recognize that if they are only one drought away, 
or one flood away from a major immigration crisis, we need to 
figure out how can we prevent that from happening, or how can 
we mitigate its effects.
    Ms. Titus. Ms. Goodman, would you talk about terrorist 
recruitment?
    Ms. Goodman. Yes. The violent extremist organizations like 
Boko Haram, ISIS, and others are essentially weaponizing water 
and food, holding vulnerable populations at risk, as hostages 
in certain circumstances, to their own advantage. And ,that is 
exacerbated because of the increasing drought that is 
displacing people in some of these regions across the Sahel and 
parts of the Middle East.
    As a result, they can thrive on the additional insecurities 
created within communities when regions in, for example, the 
Lake Chad region, which has shrunk so much over the last 
decades, can no longer support the fishing, the farming, and 
the herding populations, because of the decline in available 
water and other resources in the region.
    So this is happening. There are opportunities I think 
through our own efforts, for example, through Power Africa, 
Feed the Future, our work with allies and partners across the 
region, to make these communities more resilient and to be able 
to withstand some of these shocks and effects.
    Ms. Titus. Related to that, as you brought up, Admiral, you 
know, environmental changes cause ecological changes, cause 
demographic changes. And that often comes through migration. 
And you see that with the Rohingya. And it seems to me this 
just feeds into these problems.
    Mr. McGinn. One of the most dramatic examples, and it is a 
present generation geopolitical challenge, is what happened and 
is happening in Syria. You can trace the roots of that back to 
all those cultural, economic, political, religious divides that 
I mentioned before. But when you have a long-term drought as 
Syria experienced over the past 5 to 10 years, that cause 
migration to cities because the ability to live on the land 
that they had previously been living on for decades and, in 
some cases, centuries was taken away. And it just put that 
magnifying glass on all of those divisions and it exploded into 
civil war.
    And I am not trying to make the case that climate change is 
the direct cause, but it certainly is a significant indirect 
cause for the kind of strife that we deal with the tremendous 
consequences of, including cross-border migration, terrorism, 
all of those violent organizations that Ms. Goodman mentioned.
    Ms. Titus. Thank you. Thank you, Mr. Chairman.
    Chairman Engel. Thank you, Ms. Titus.
    Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman. Good to see you back. I 
appreciate the panelists here.
    And, you know, a discussion on climate change and national 
security I think is something that we need to have. But I think 
it is something we need to keep in perspective. If we look at 
all things that are affecting America or our security, where 
would you rank climate change when you rank it with debt, 
China, cyber security, theft of intellectual property? As Mr. 
Worthington pointed out, 100 percent of our rare earth metals 
we are dependent on China. 90 percent directly come from China, 
the other 10 percent come from countries that get it from 
China. And, you know, we can go on to polarization of politics.
    So, where does climate change fit in there? Where would you 
rank it?
    Mr. McGinn. It is right near the top. I am not trying to 
make a case that it is the most compelling, but in terms of the 
broadness and the depth of its implications for us today and 
going forward, it is a very, very serious challenge for our 
Nation economically, environmentally, and in terms of energy.
    In terms of the rare earth dependence, we have got an 
ability in this country with the kind of universities and 
business that we have, the technologies that we are developing, 
to make rare earth elements less of a challenge by developing 
other means of storing energy, et cetera.
    Mr. Yoho. I am going to cut you off there.
    Mr. McGinn. Yes.
    Mr. Yoho. Because I agree with you. And we have got a bill 
that we are putting in, a rare earth and critical minerals bill 
that we have a national stockpile 2 to 3, or 3 to 5 years out 
there that we can readily access. I am not saying we have to 
extract it right now. But we need to know where it is, and we 
will go after it when we need it for national security reasons.
    I am going to ask the panel here because, Ms. Goodman, you 
brought up, you stated that climate change has led to the mass 
migrations. Is that correct?
    Ms. Goodman. Climate change is a factor in the mig----
    Mr. Yoho. OK.
    Ms. Goodman. _in the vast migration flows that we have 
seen.
    Mr. Yoho. How many people, do you have any estimate of how 
many people have been displaced by climate change, out of the 
70 million from the Middle East, Asia Pacific region? What 
percent would you say is climate change related?
    Ms. Goodman. I think the way to think about it, 
Congressman, is that the factors we have discussed of extreme 
weather events, sea level rise, temperature rise, increased 
drought, and water scarcity are exacerbating the reasons that 
people move.
    Mr. Yoho. All right. When I look at the water map of 
Africa, there is plenty of groundwater there. What we see so 
often is the inability of governments to respond, or 
governments cause the problem. And as you pointed out, Boko 
Haram and these other terrorist organizations will use anything 
they can to leverage people.
    Ms. Goodman. Uh-huh.
    Mr. Yoho. And that they do that when we give U.S. aid 
relief, whether it is food, whatever it is, they hold that. And 
we see what is going on in Venezuela, that is not a climate 
change condition. That is bad politics.
    Ms. Goodman. Exactly.
    Mr. Yoho. And so to say that, you know, you know, I hear 
that we are not leading, I agree with Chairman McCaul stating 
that, you know, we pulled out of the Paris Climate Accord, and 
I am glad President Trump had the leadership to do that because 
it was a piece of paper that bound this Nation, whereas other 
nations like China or India says, well, we will try. You know, 
and that is at the expense of the American population.
    And if you look at from 2005 to 2017, the U.S. economy grew 
by 20 percent while our energy consumption fell by 2 percent. 
Energy-related CO2 emissions also decreased during that time 
period from 2005 to 2017, it dropped 14 percent. That is 
leadership. If the rest of the world would follow what we do 
instead of us going after the--you know, and the politics that 
gets played over climate change I think is damaging this 
country.
    I think we need to look at it. We need to look at all 
energy sources. You know, Chairman, Mr. Keating stated out 
that, you know, we pulled out of the Paris climate change and 
this was terrible, yet, in Cape Cod where I assume you are up 
in that area, too, Massachusetts, they cannot get to Cape Cod 
wind farm because it says year-round and summer residents 
expressed concerns over the location of the project. Some 
claimed that the project will ruin scenic views from people's 
private property as well as the view of public property, and 
that it would interfere with yachting.
    So, if they are really serious about this, build the dang 
wind farms and do not, you know, do not say ``not in my 
backyard.''
    So, I think we should look at it strategically. I think the 
warming of the Arctic is very serious because China is wanting 
to lay claim in there because they say, well, we are near 
territory. Those are the things that I see, and it is not 
following the international norms that we need to stand up 
against China and back them off now. If not, they are going to 
have bases up there. They are going to be extracting energy. 
And they are going--I mean, you look at what they did in the 
South China Sea and tore up 4,000 acres of coral rock, that has 
got to be bad for the climate, too. But nobody says a word to 
China.
    I am out of time. And I am sorry I did not get to ask much 
of a question. I am just angry. See ya.
    Chairman Engel. Thank you, Mr. Yoho.
    Ms. Spanberger.
    Ms. Spanberger. Thank you, Mr. Chairman. Thank you very 
much to our witnesses for being here today.
    Ms. Goodman, I would like to ask a quick question just for 
some level setting for people here on this committee hearing. 
Related to the Paris Accord, it is my understanding that the 
Paris Accord did not bind our actions, the actions of the 
United States. Is that correct?
    Ms. Goodman. Yes, that is correct. Each country sets it own 
nationally determined commitments.
    Ms. Spanberger. So, to confirm, we, the United States of 
America, submitted the goals that we thought were appropriate 
for us and the goals that we wanted to, to achieve into the 
future. Is that correct?
    Ms. Goodman. Yes.
    Ms. Spanberger. Thank you, ma'am.
    So, to draw from that a little bit further, my question is 
how much benefit is the U.S. receiving from the continued 
dedication of our European allies and U.N. member States who 
still are committed to the Paris Accords and their climate 
change actions?
    And then, separately, what risks are we taking in your 
assessment by not being party to these agreements any longer?
    Ms. Goodman. Well, I think the risks that we are taking are 
the continued license for China, Russia, and other great powers 
of this age to meddle further in our own American interests and 
with our allies and partners. We see that particularly across 
Europe today. We see increasing leverage of both Chinese 
foreign direct investment and Russian energy across Europe. 
And, without a strong American presence and American 
leadership, both within the NATO Alliance and on climate 
leadership, we put our own security at risk.
    Ms. Spanberger. Thank you. And would any of the other 
witnesses want to add anything to that question?
    Mr. McGinn. I would just say the phrase ``leadership by 
example.'' The United States has been a force for good, and 
continues to be. And anything that we do that undermines our 
own credibility by not acting in a way that a global leader 
needs to act to be that continuing force for good is 
detrimental.
    Ms. Spanberger. Thank you very much. Mr. Worthington?
    Mr. Worthington. Yes. Let me just say that there is not a 
single European country who is on track to meet their 
commitments under the Paris Accord.
    Ms. Spanberger. So, given that they are not on track to 
meet their commitments, do you assess that that is a reason to 
abandon commitments and efforts to achieve them?
    Mr. Worthington. No. That is not what I said. I did mention 
in my testimony that our energy industry, particularly electric 
power, has achieved a 28 percent reduction in CO2 emissions. 
There is only one other country in the world that can claim 
that.
    Emissions in Germany are going up. The use of coal-fired 
power in Germany is increasing, not decreasing.
    Ms. Spanberger. So then what, in your assessment, sir, 
would be the fact that our European allies remain committed to 
the Paris Accord, what benefit then do we receive because of 
their continued commitment.
    Mr. Worthington. Their continued commitment of talking is 
not reaching their, their commitment. They are, they are not 
delivering on what they are talking about. They publicly, 
verbally, and in writing will make commitments to reduce 
emissions. Their reality is they are not reducing emissions, 
they are increasing emissions.
    Ms. Spanberger. Would any of the other witnesses care to 
comment on that? Thank you, Ms. Goodman.
    Ms. Goodman. I think the right analogy here is within the 
NATO Alliance for 70 years, that alliance has enabled Europe 
and America to be whole and free and to spread the values and 
norms in a globally constructive and productive manner for our 
economies and our people. We have at various times taken our 
European allies to account for not fully meeting their 
financial commitments within the Alliance. That is a continuing 
burden-sharing discussion. It does not mean we do not value the 
Alliance, and the commitment and the leadership.
    And, I would say here we are going to have, within the 
climate community there is going to continue to be, debates 
about the right levels of commitment and who is living up to 
their individual nationally-determined commitments. Those are 
reasonable to have at any given time. It does not obviate the 
need for the overall commitment to address the climate 
challenge.
    Ms. Spanberger. Thank you. And in some of the discussions 
here today when talking about the national security threats to 
global climate change and the fact that when there is a vacuum 
in times of extreme weather events we will see that vacuum 
filled by someone, if not good positive actors such as the 
United States or aid agencies. I think the same is relevant to 
what you were saying, Ms. Goodman, that in the absence of U.S. 
leadership someone else will be stepping in. And I think that 
is to our future detriment.
    Thank you for your testimony. I yield back.
    Chairman Engel. Thank you, Ms. Spanberger.
    Mr. Zeldin.
    Mr. Zeldin. Thank you, Mr. Chairman.
    Continuing the conversation on the Paris climate agreement, 
if, Mr. Worthington, if the United States was to remain in the 
Paris Agreement past 2020, can you speak to what role the 
executive branch should play in consulting with the private 
sector and Congress on responsible greenhouse gas reduction 
targets? And should it publicly produce its economic analysis 
and cost-benefit conclusions?
    Mr. Worthington. I think that is correct. I think that we 
have not been part of the discussions during the last 
administration as to what we should try to do relative to 
climate.
    As I mentioned, we have received or achieved remarkable 
reductions in greenhouse gas emissions in the energy industry. 
We were, we were not doing that because of the Paris Accord, we 
were doing it for whole variety of other, of other reasons, 
including our customers, our employees, our shareholders. 
Everyone wants us to reduce emissions, so we are reducing 
emissions.
    If the Paris Accord were to be renegotiated, we would very 
much like as an industry, to have a seat at the table to 
discuss how that might be best achieved.
    Mr. Zeldin. Thank you to all the witnesses for being here. 
Do any of you believe that President Obama should not have 
submitted it to the Senate for ratification? Do any of the 
witnesses disagree with the statement that President Obama 
should have submitted it to the Senate for ratification?
    Mr. McGinn. Military, not political.
    Mr. Zeldin. Anybody else want to weigh in? OK.
    China is the world's largest greenhouse gas emitter. What 
were China's commitments under the Paris Agreement? And can you 
speak to Beijing, whether or not they are living up to their 
commitments?
    Mr. Worthington. The Chinese commitment was to try. That 
they would, they would basically try to reduce emissions. There 
was no commitment any further than that.
    And I will add that, you know, recognize that today China 
is building over half of the coal plants that are under 
construction in the world today, about half of them in China, 
and about half in other countries. And part of the reason for 
that, we have heard discussion where if the U.S. steps back 
from the leadership role someone else will step in.
    Well, the United States stepped back from a leadership role 
in terms of helping developing countries develop their fossil 
energy resources. The World Bank stepped back, largely at the 
urging of the prior U.S. administration. And as a consequence 
of that, all through Africa and parts of Asia you see the 
Chinese companies building coal-fired power plants only to the 
standards that they believe is relevant, which means 
essentially no standard at all.
    If we had endured in U.S. leadership instead of allowing 
that vacuum to occur, we could be seeing these facilities being 
built, but built to standards that are modern, that are 
responsible environmentally, and responsible in a climate 
context. Instead, we stepped back and allowed that vacuum to be 
filled by the Chinese.
    Mr. Zeldin. One of the debates that we will have in 
Congress on this topic and out of Congress is a regulatory 
approach versus a market-based approach. If any of the 
witnesses can speak to the role of technology and innovation in 
reducing greenhouse gas emissions?
    Mr. McGinn. I served as a director on the Electric Power 
Research Institute. And the membership of EPRI is primarily 
utilities of all sorts, rural electric co-ops to investor-
owned, to public utilities. And the private sector is 
significantly engaged in trying to produce ever cleaner, more 
reliable electricity, and to apply that electricity in places 
like transportation, for example, and commercial and industrial 
activities where we have not had the technology to be able to 
do that.
    So, in my experience the private sector in many cases, 
because of their customers or their work force, the motivation 
to not just have safe, reliable, affordable, but also clean 
electricity delivered is really, really driving the industry in 
a very, very positive direction.
    And I think that a lot of the greenhouse gas reductions 
that were cited earlier came about as a result of efforts in 
the, in the utility business. Some of them were self-motivated, 
many of them were because of regulation and policy that 
produced a positive effect.
    So it is a matter of achieving that, that good balance.
    Mr. Zeldin. Thank you for your service, Admiral. I am out 
of time so I will have to yield back.
    Mr. Costa. [presiding.) The gentleman's time has expired. I 
will now recognize the gentleman from Florida, Mr. Ted Deutch.
    Mr. Deutch. Thanks, Mr. Chairman. Thanks to the really 
terrific panel for being here. Thanks for your service to our 
Nation.
    We are on the brink, as we have been discussing here this 
morning, of major global catastrophes caused by climate change. 
Sea levels are rising, threatening coastal communities; warmer 
bodies of water are feeding stronger storms, like Hurricane 
Michael that intensified rapidly into one of the strongest ones 
in our history; droughts are affecting crop production; shorter 
winters will displace wildlife and impact cold weather tourism.
    You said earlier, Admiral McGinn, you talked about Camp 
LeJeune and Norfolk, but these troubling signs are also 
impacting my community in South Florida. Rising sea levels 
threaten the Coast Guard facility at Port Everglades. In Miami 
the rate of rising sea levels is outpacing global rate by 
nearly tenfold. In Miami Beach the resiliency projects already 
underway cost over $500 million to raise roads and improve 
drainage systems. But worsening flooding during the annual king 
tides, the highest tides of the year, is threatening now even 
inland communities.
    Unfortunately, this Administration has shown little 
interest or willingness to take any action. I founded the 
bipartisan Climate Solutions Caucus in Congress to serve as the 
first form for rank and file Democrats and Republicans to sit 
together to discuss how these events will devaState our Nation. 
Last Congress we had 88 members, split evenly between the two 
parties. The size of the caucus and the regional diversity of 
the members reflects the growing recognition of climate change 
affecting regions all across the country.
    I particularly would like to recognize my Republican 
colleagues on this committee, Representative Rooney, the co-
chair of the Climate Solutions Caucus in this Congress, and 
Representatives Fitzpatrick, Kinzinger, Mast, and Zeldin for 
serving on the caucus. We hope that this Congress the caucus 
will play a more active role in actually getting things done.
    The caucus recognizes that climate change is not just a 
threat to the U.S. but a threat to the world. To prolong 
drought, food shortages, bigger and more devastating storms, 
the spread of diseases, can undermine stability, as we have 
heard this morning.
    The world needs to prepare for refugees fleeing from 
countries that will no longer be habitable due to the impacts 
of climate change. We watched as Cyclone Idai devastated 
Southeastern Africa, flooding hundreds of square miles, 
damaging Mozambique, Zimbabwe, and Malawi. Thousands could be 
dead, and cholera cases now exceed 1,000.
    And a drought in 2018 almost caused Cape Town, South Africa 
to literally run out of water.
    In the absence of Administration action, Congress must step 
up to act. Americans of all political stripes acknowledge 
climate change and expect their government to do something, 
something that will actually reduce greenhouse gas emissions, 
something that will seriously address climate change. And I 
hope that this Congress we will do that.
    Admiral McGinn, DoD and intelligence officials have 
explained how climate change forces our military to adjust 
strategy and policy. There have been references that a number 
of you have made to Russia and China. I would like to, I would 
to just spend a minute addressing whether China and Russia face 
these same challenges. You have spoken about the opportunities 
to them, particularly on the Arctic Circle, but how is climate 
change affecting our military's security interests?
    Mr. McGinn. China and Russia both face internal challenges 
of climate change. It is, as you know, it is a global, a global 
phenomenon, a global threat.
    Our military is being called upon more frequently because 
of the natural disasters that are caused by Mother Nature. But 
I think that our ability to operate out of our bases here in 
the United States, as well as overseas, is increasingly going 
to be impacted.
    You mentioned Hurricane Michael and what happened Tyndall 
Air Force Base, Hurricane Florence coming up the Eastern 
Seaboard and the devastation it wrought on Camp Lejeune, prior 
year hurricanes in South Carolina at Paris Island. And the list 
goes on. So, I think that our investment in resilience and 
recognizing that our military needs these platforms to launch 
American power down range, and to be able to be effective in 
all of the emissions is absolutely necessary for investment.
    Mr. Deutch. Thanks.
    Ms. Goodman, actually let me, let me ask you about 
something that we have talked about in this committee before 
and the research that environmental stresses did not cause the 
Arab uprising in 2011, but the impacts of climate change may 
have served to increase the likelihood of instability. Can you 
elaborate and provide an example of how climate change has 
undermined stability in the Middle East?
    Ms. Goodman. Well, in Syria in the years preceding the 
deadly conflict, there was a prolonged drought. And, that 
drought drove farmers and herders that had lived peaceably in 
the rural areas to abandon some of those rural areas and move, 
or migrate, toward cities. That created civil unrest as the 
cities were unable to accommodate those people, and that 
enabled extremist forces to move in.
    So, the drought is directly connected to the onset of the 
civil unrest and the increasing violence. It is not the only 
factor, but it is an exacerbating factor.
    And, if I might add in response to the last question, 
climate change is degrading military readiness in the United 
States today, as we see our bases and stagings increasingly at 
risk from extreme weather events_which cost over $5 billion now 
to rebuild both Tyndall and Camp LeJeune_and also the floods 
recently across the Midwest affecting StratCom and Omaha. And, 
not to mention the regular sunny day flooding that occurs in 
Norfolk as well as in your region in Miami. This is a very 
significant effect on our military.
    Mr. Deutch. Thank you.
    Mr. Costa. We thank you for your response. And the 
gentleman's time is expired.
    And the Chair will now recognize Susan Wild, the 
gentlewoman from Pennsylvania for 5 minutes.
    Ms. Wild. Thank you, Mr. Chair.
    I am one of those people that believes that the American 
military is uniquely qualified and capable of working on real 
climate solutions. And I would just first like to know whether 
all of you agree with me on that or disagree?
    Mr. McGinn. Agree.
    Ms. Wild. I guess, and I am seeing nodding of the head. So 
what I would really like to see is some sort of directive to 
our military operations that climate change is something that 
we need the military to proactively work on and to assist the 
rest of the world in coming to solutions. And I understand to 
some extent that is happening.
    Ms. Goodman, could you tell us something about what 
initiatives the U.S. military is engaging in now or planning to 
undertake in the future to combat climate change?
    Ms. Goodman. Thank you, Congresswoman.
    I would start from the assumption that the military's 
mission is to provide the most effective and capable fighting 
force in the world and for the United States. So the things 
that the military can and should do in addressing the climate 
challenge is in support of that military mission. For example, 
when I observe that extreme weather events are causing damage 
to military bases, we need to be at the forefront of learning 
how to reset our base infrastructure to be resilient to those 
climate effects.
    And, that is part of the military's mission. That will have 
other benefits to the local communities in which the bases are 
located_from Norfolk to Florida.
    At the same time, the military is a large user of energy in 
the United States. And, what we have learned over the last 
several decades is that we can increase the performance and 
effectiveness of our propulsion systems, of much of our weapons 
systems, and at the same time we can be more efficient in our 
use of energy and we can take advantage of changes and 
technological progress in the advanced energy system.
    So, we have seen that, for example, when in Iraq and 
Afghanistan we were losing people, putting soldiers at risk 
when they were convoying fuel to the front, we learned how more 
efficiently to provide that fuel and water to our forces at the 
front. We also learned to provide different ways of powering 
our bases, or to use energy-efficient insulating foam and other 
techniques.
    Those all support the military mission. That technological 
development, began through a variety of different research and 
development programs, both in the Department of Defense and in 
conjunction with the Department of Energy and others, provides 
valuable benefits for the military mission. And, at some time, 
just as it has done through other non-military technologies, 
has aided in the furtherdevelopment and commercialization of 
those technologies.
    Ms. Wild. So, I would like to see us be more proactive and 
a little less reactive to all kinds of problems in our country 
and in our world and, in the context of this hearing 
particularly, climate change. Do you believe, Ms. Goodman, that 
this Administration--actually, let me ask this of Admiral 
McGinn, if I may.
    Admiral, do you believe this Administration is taking 
climate change and the threats that it presents to U.S. 
national security and global conflicts as seriously as it 
should be?
    Mr. McGinn. I think the rhetoric would appear that it is 
not. Although there are many, many people in the 
Administration, I am absolutely certain, understand the 
business case for doing something about this, this enormous 
problem. There are costs, there are benefits, and there are 
risks to any endeavor in the military sphere, in the national 
security sphere. And these pragmatic people, these patriots, 
get that. And they are taking appropriate actions.
    But those actions could be so much better supported and 
accelerated and magnified, and the effects so much better, the 
benefits so much sooner and broader, I think that that could be 
a major change.
    And I will just say I am so pleased as a citizen to hear 
both sides of the aisle talking about climate change as real. 
It is a problem. Lots of discussions about how best to deal 
with it and all of that, but recognizing the problem is 50 
percent of its solution.
    Ms. Wild. Thank you. I am almost out of time here. But how 
might it be better supported? You mentioned that it could be 
better supported in this endeavor.
    Mr. McGinn. I think encouraging the deployment of better 
forms of energy, microgrids, storage systems, working with the 
private sector in public/private ventures, working with 
communities as the Navy has up in New London, Connecticut, out 
in Hawaii and in California. And I just think that that could 
really, really accelerate the deployment of clean energy to the 
economic benefit of our private sector and our overall economy.
    Ms. Wild. Thank you.
    Mr. Vargas [presiding]. Thank you. The gentlelady's time 
has expired. We are going to go to the next member. Going to go 
to the gentleman from Ohio, Mr. Chabot. You are next, sir.
    Mr. Chabot. Thank you very much, Mr. Chairman. And I spent 
the last almost 2 hours in the Judiciary Committee dealing with 
H.R. 5. Just got here. So rather than ask questions that 
probably some of my colleagues already asked and were answered, 
I would like to yield my time to the gentleman from Florida, 
Mr. Yoho.
    Mr. Vargas. Mr. Yoho is recognized.
    Mr. Yoho. Thank you, Mr. Chabot. Mr. Chairman, thank you. 
And, again, thank you, guys.
    You know, and I have heard over and over again some things 
that I really like, it is the adaptability that we have to do. 
You know, we can argue the causes and all that, and we can get 
into that and it becomes political. But it is the adaptation of 
our military bases.
    I come from Florida and so we are well aware of the affects 
from that. We have had Hurricane Irma go through the whole 
State.
    And, you know, leadership, we have seen record amounts of 
coal-fired power plants go out of, go out of business with this 
Administration, switching to either going out of business or 
switching to LNG. And I guess, Mr. Worthington, since you are 
from the energy realm, is that a good thing, switching to LNG 
from coal?
    Mr. Worthington. Well, it is a good thing when individual 
companies, corporations make decisions that are in their best 
interests based on the market. At the current moment you have 
our abundant, wonderful bonanza of shale gas development has 
provided the United States with a very unique opportunity. We 
are expanding our domestic energy production while we are 
reducing CO2 emissions.
    Mr. Yoho. OK.
    Mr. Worthington. It is really quite marvelous.
    Mr. Yoho. And we have run an energy summit in the last 2 
years. Jacksonville, I am sure you are aware of this, is the 
largest storage bunker in capacity in the United States of LNG. 
And we have had 20 different nations that have come there. They 
want LNG out of the U.S.
    And, you know, from a geopolitical standpoint they want 
something that is inexpensive, reliable, with a reliable 
partner. And so our goal is to do this.
    And yet, we talk about China and the, you know, the 
different accords that countries sign up to. And we heard that 
the EU is not adhering to it. China is trying. Yet they are 
building these dirty coal-powered fireplaces or power plants 
instead of using the new technology. And I think it just shows 
it is disingenuous of China. And I think it shows the 
leadership of America by putting in the regulations to allow us 
to export more LNG, having countries convert to LNG.
    Turkey was there, and they get about 98 percent of their 
energy from outside sources. And Mongolia gets 90 percent of 
their energy from Russia. And Russia uses that as a 
geopolitical tool
    So, as far as climate change, I will ask the panel what can 
we do to get countries to stop building the dirty coal plants, 
you know, like China is doing without the advanced technology? 
Admiral, how do you put pressure on a country like China?
    Mr. McGinn. I think competing economically and providing 
the kinds of solution you mentioned, LNG as a good interim 
substitute for coal. You get electrons out but you do not get--
you get half of the greenhouse gas emissions that you would for 
a coal plant, to say nothing of the other, other emissions.
    I think that if we continue to invest in our technology, 
not just advanced technology but actually deploying things that 
work, better storage technology, better production of wind and 
solar electricity, better electrification of our transportation 
system, we can in fact motivate nations like Russia, or 
especially China to, to invest in those things as well even 
more, and to deploy them.
    And I would like to see ``Made in the USA'' on more and 
more green things across the world.
    Mr. Yoho. Oh, I sure would, too.
    And you know, and I look at energy. It is all of the above. 
We want the ones that make the most sense that, you know, 
benefit everybody and that is profitable. This committee and 
the President signed into law last year the BUILD Act, which is 
something to counter China's BRI initiative. And this is 
something as we go to the developing countries that we can use 
that technol--or that, that vehicle and invest in the proper 
technology that will propel them into the 21st Century in a 
smart way.
    I am going to yield back to Mr. Chabot, if you have any 
other comments. And thank you.
    Mr. Chabot. Thank you very much. And I will yield back, Mr. 
Chairman.
    Mr. Vargas. Thank you very much. The gentleman yields back.
    Go to the next member, the member from California, Ted 
Lieu, Mr. Ted Lieu.
    Mr. Lieu. Thank you, Mr. Chair.
    I previously served on active duty. And I know that we have 
the best military in the world because we rely on data, on 
facts, and on science. We do not live in a fantasy world 
because if we did, U.S. troops will die. We live in reality and 
we understand, the military does, that climate change is real 
and it is harming national security.
    That is why I am so pleased that Republican Ranking Member 
McCaul today in his opening statement acknowledged that climate 
change is real and that it is threatening U.S. national 
security. We cannot solve a problem if people do not agree that 
there is a problem in the first place. So I am pleased that 
more and more Republicans no longer believe climate change is a 
hoax perpetrated by the Chinese.
    Now, Admiral, again, you have stated that in your own 
testimony, earlier to a question that climate change ranks 
right near the top in terms of threats to U.S. national 
security. I believe you are right. There was an article in The 
Guardian titled ``Pentagon Report Finds that Climate Change 
Threatens Half of U.S. Bases Worldwide.''
    One of these bases is Joint Operating base in the small 
island of Diego Garcia. Can you explain to us how important 
that base is to U.S. national security and our ability to 
project power?
    Mr. McGinn. It is located in a very strategic area of the 
world in which--from which you can use it as a platform to send 
power down range to the Middle East, to the South Asian 
subcontinent. And to lose that, that base's effectiveness at 
Diego Garcia because of sea level rise or other reasons would 
cause us to slow down the ability to flow in combat power 
logistics and all the things you need to respond to a regional 
crisis, or even a humanitarian assistance.
    Mr. Lieu. Thank you. And, in fact, in the first Iraq war 
air strikes were launched from that base; correct?
    Mr. McGinn. That is right.
    Mr. Lieu. So, Mr. Chair, I would like to enter that article 
in for the record.
    I will catch him later.
    Mr. Chair, I would like to enter the article in for the 
record.
    Mr. Vargas. Without objection.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lieu. All right. I have a second article now, ``How 
Climate Change is Threatening the Navy's Footprint in the 
Pacific.'' And it talks about the island of Guam where I served 
on active duty. And the article says, ``This tiny Western 
Pacific island is central to U.S. security interests in the 
region. It is home to two of the Nation's most strategically 
important military bases, both threatened by climate change.''
    Can you explain to the committee how important the two 
bases on Guam are to our national security?
    Mr. McGinn. Once again it is because of location to areas 
of potential conflict or actual unrest now that Guam and those 
far, far Western Pacific platforms, in this case a U.S. 
territory, are. We have got capabilities there for missile 
defense forward. We have got capabilities to launch and to 
maintain submarine presence, surface warfare. And, of course, 
with the Andersen Air Force Base, any kind of Navy, Air Force, 
or Marine Corps air power.
    Mr. Lieu. Thank you. And, Mr. Chair, I would like to enter 
that article in the record as well.
    Mr. Vargas. Without objection.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lieu. And then my final article today, ``The Military 
Paid for a Study on Sea Level Rise. The Results Were Scary.'' 
That is a Washington Post article dated April 25th, 2018. It 
talks about this small island of Roi-Namur which houses the 
massive Ronald Reagan Ballistic Missile Defense Test Site. It 
is now in routine threat of flooding because of climate change.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lieu. Can Admiral McGinn or Ms. Goodman, can you 
explain how important it is to have the Ronald Reagan Ballistic 
Missile Test Site not flood?
    Ms. Goodman. Yes. That is very important, Congressman. That 
is a space radar tracking station that was constructed for that 
island of Kwajalein at a cost of approximately one billion 
dollars and could be at risk of being overrun or having coastal 
erosion degrade that capability within the next decade or so.
    Mr. Lieu. Thank you.
    In my home State of California we went from the eighth 
largest economy in the world to the fifth largest economy in 
the world even though we had the strongest climate change laws 
in the Nation. And it is clear when you look at the data that 
when California did what it did all these people who want to 
work on clean energy, clean technology, solar, wind, all 
decided to come to California.
    So, I have introduced legislation, The Climate Solutions 
Act, that basically takes California's laws and makes it 
national because we want the best and brightest in the world 
when they want to work on green technology and move our country 
forward to not go to China or Germany, we want them to come to 
the United States.
    And with that, I yield back.
    Mr. Vargas. The gentleman yields back. The next member to 
speak is the gentlewoman from Pennsylvania, Member Houlahan is 
recognized for 5 minutes.
    Ms. Houlahan. Thank you. I really appreciate all of the 
time of the panel. I, similar to Rep. Lieu, I served in the 
military as well and I did my field training at Tyndall Air 
Force Base. So it is kind of a catastrophe to think about that 
base in its current State versus the way that it was when I 
served.
    And like many of my colleagues, I will probably follow 
Representative Lieu and Representative Spanberger's lines of 
questioning, I am really concerned that we have left the Paris 
Accord for lots of different reasons. But one of them, Admiral, 
that has to do with one of your statements is that we have to 
lead by example. And we are no longer doing that and we are 
abdicating our leadership role.
    And so one of my questions to you, Admiral, first, is that 
you mentioned in your testimony, both live and in written form, 
the Administration officials that have stated the need for the 
government to address climate change. And my question to you is 
how can Congress, how can we help support the findings of the 
military and the intelligence communities in their efforts to 
mitigate climate change even though the White House currently 
seems unrecogniz--unwilling to recognize this growing threat? 
So, what can Congress do to be helpful?
    Mr. McGinn. I think continuing the discussion, as a first 
step, a necessary step in a bipartisan way that this is a real 
problem. It is growing. Delay of implementing solutions to both 
increase our resilience as well as to mitigate the greenhouse 
gases that we are putting out there, it only gets more and more 
expensive and more risky as each year goes by.
    And I think that encouraging every department and agency in 
the Administration to do things that make sense from a business 
perspective, that the business case for creating win/wins, a 
win for the economy, a win for the private sector, a win for 
the mission of whatever that department or agency is, 
especially the Department of Defense, just makes so much sense.
    And I think there are so many incentives. There are, 
obviously, investments. It takes money to an extent but it also 
takes guidance as well for us to assume and maintain that 
mantel of leadership.
    Ms. Houlahan. And I agree. I spent a lot of my time before 
doing or coming to Congress in corporate social responsibility. 
I think it is only in the best interests of many businesses to 
do the right thing for the planet.
    And, actually, I would like to present the same question to 
Mr. Worthington that I just presented to the admiral, which is, 
in your testimony you said we can do this without additional 
regulation, we do not need the Clean Power Plan, we do not need 
the Paris Accord to achieve continued progress. We would rather 
pay engineers and lawyers. And so my question to you is, is 
there nothing that Congress can be doing to be helpful to 
advance things like climate change, which you also agree is 
real?
    Mr. Worthington. I think that the most important thing that 
we need as a country that only Congress can do is to put 
additional resources into research and development. We have 
made great strides in deploying renewables. We have made great 
strides in improving the efficiencies of fossil units. We have 
a need to resurrect the domestic nuclear industry with small 
modular reactors. There is a whole variety of technologies that 
are just sitting on the cusp.
    We have a great opportunity to increase our uptake of 
renewables if we can get less expensive electricity storage in 
place. We have a great opportunity eventually to convert some 
of our energy consumption to hydrogen-based fuels. We have a 
great opportunity to reduce emissions further by deploying 
carbon capturing storage on fossil energy units, both coal and 
natural gas. All of this is critical but we need additional 
technology development, R&D. And that is where Congress can be 
very helpful.
    Ms. Houlahan. And we 100 percent agree on that. That is 
something that we definitely need to move forward on and 
support.
    And with the last few seconds of my time I would like to 
ask Ms. Goodman, Representative Lieu talked about some places 
that he had served, in Guam and some places specific to his 
service. My question has to do with something in Pennsylvania. 
We have a DLA depot in Susquehanna, Pennsylvania that has 
identified that they are, in fact, being affected by climate 
change. They maintain $13 billion in materiel.
    What kinds of things, what kinds of things will happen if 
that particular area is affected, as it anticipates being, by 
climate change in terms of the downstream effects of the supply 
chain? If you can comment on that.
    Ms. Goodman. Well, it will degrade the DLA's ability to 
perform its mission at that location if it is increasingly 
subject to either extreme weather events, or seal level rise, 
or coastal erosion in that Susquehanna area. That is an 
important location for DLA, I know that.
    And, you know that they need to make those facilities 
resilient, so they can continue to operate_that is, a 
combination of working both in the built and the natural 
infrastructure, and then working on solutions in conjunction 
with the surrounding community. And, using available technology 
like predictive analytics and other solutions that will enable 
us to better understand and anticipate those threats, basically 
prepare in advance to address those challenges.
    Ms. Houlahan. Thank you so much to everyone for your time. 
And I yield back.
    Chairman Engel [presiding]. Thank you very much.
    Mr. Watkins.
    Mr. Watkins. Thank you, Mr. Chairman. And thanks to the 
witnesses for being here.
    My question is for Ms. Goodman. In your testimony you noted 
that China published its first Public Arctic Policy in 2018 
wherein it declared itself a near Arctic State, and articulated 
its intention to build a polar silk road. Could you elaborate 
on this?
    Ms. Goodman. Yes, Congressman.
    In 2018, China did release its first Arctic policy. It has 
been expanding its capabilities to operate throughout the 
Arctic; declaring itself a new Arctic stakeholder; looking to 
shorten its shipping times from China into Europe by transiting 
across the Northern Sea route; increasing its ice-capable 
vessels and ability to operate in the Arctic; increasing its 
extent of research and development across the region; and, also 
increasing its foreign direct investment with other Arctic 
nations, in particular, Greenland and Iceland.
    Mr. Watkins. Thank you. And this question is for anybody 
who would like to address it.
    There are many countries around the world, of course, that 
are extremely underdeveloped. I spent a large part of my adult 
life working in a few of these countries. Does limiting the use 
of certain energy resources around the world make it harder for 
these underdeveloped countries to grow their economies and to 
play a role in their regions around the world?
    Mr. McGinn. I would say any country that is developing and 
wants to increase their quality of life and economic viability 
needs the best form of energy that suits their location and 
their needs.
    Probably the most dramatic example I can think happens in 
sub-Saharan Africa where there have been companies and there 
have been private organizations that have brought solar power 
that has enabled cellular communication, satellite 
communication, access to the internet, and has empowered those 
communities to do things like extract water from solar-powered 
wells that have been able to transform their local economy at a 
very, very low cost, without having to build a central power 
plant and a transmission distribution network as we did.
    This is similar in many ways to what happened after the 
cold war when Eastern Europe did not have to create telephone 
poles and wires to have a modern telecommunications. They were 
able to go wireless because the technology was available, and 
it was affordable, and it was able to be deployed very rapidly.
    I think that same way of going about things is true for 
these developing countries.
    Mr. Watkins. Leapfrogging technology, yes.
    Mr. McGinn. Leapfrog. Leapfrog, exactly. Trying to maximize 
the benefits and minimize the costs, the economic costs and the 
environmental costs to deploying energy to developing 
countries.
    Mr. Watkins. Great. Thank you, Admiral.
    That is it, Mr. Chairman. I yield my time. Thank you.
    Chairman Engel. Thank you very much.
    Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    My friend Mr. Espaillat has been waiting, and I am willing 
to yield to Mr. Espaillat and then take my turn after that.
    Mr. Espaillat. Thank you, Mr. Connolly. This is the 
greatest form of collegiality I have ever seen while I have 
been in Congress. It must be that wonderful colored tie he is 
wearing today.
    Mr. Chairman, climate change is an existential threat. And 
just want to start this by laying out this fact. And if we do 
not act it will have massive harm on our children, our future, 
and our children's children. And we are already seeing the 
effects today: increased heat, frequency and intensity of 
natural disasters, the lack of water. The effects of climate 
change can be seen around the world. And often it affects the 
already marginalized among us. It makes worse political 
conference and endangers all of us.
    Having said that, and being a member of the Western 
Hemisphere Subcommittee, I want to ask a couple of questions. 
The first one is, first of all I will start by saying that 
academic institutions such as Stanford, Columbia University, 
partner often with activists, not-for-profits, and venture 
capital firms to essentially reverse engineering solutions for 
communities suffering from devastating impact of climate 
change, including, as we have seen in the Caribbean and Latin 
America, there has been a, currently a horrible drought that is 
crippling the agriculture of many of those countries.
    We have seen the patterns of hurricanes and tropical storms 
devastating the Caribbean as well.
    From my understanding, in a short amount of time these 
initiatives have yielded substantive insights, these 
partnerships with academics, not-for-profits, and people on the 
ground. So I want to ask Mr. Weisenfeld, can you discuss the 
USAID investment in similar partnerships with academia or the 
private sector which seek to drive innovative solutions to 
build resiliencies and mitigate the effects of climate change?
    Mr. Weisenfeld. Thank you very much, Congressman, for that 
question. I would be happy to discuss that. Because you have 
described the impacts of extreme weather events, increasing 
temperatures have dramatically negative consequences for 
communities. They often force communities into situations of 
suffering from floods or droughts. We also have seen increased 
diseases for plants in Central America and we have seen 
increases in coffee rust. USAID is doing the Feed the Future 
initiative_which the U.S. Government's global food security 
initiative, has invested in research, innovation, and new 
technologies through a range of universities that they call 
innovation labs.
    And we have seen that employing new technologies, new ways 
to improve water management, more drought-resistant crops, more 
efficient methods at utilizing fertilizer can be preventative 
ways to build resilience in those communities, and help them 
avoid the kinds of dramatic consequences that we see.
    Mr. Espaillat. And what about the Caribbean? We saw what 
happened in Puerto Rico, the horrible storm that Puerto Rico is 
still reeling back from the impact of those storms. There is no 
guarantee that that region will not be, unfortunately, hit 
again by either a hurricane or what they call vaguadas. That 
is, you know, you have maybe 12, 14 days of rain, torrential 
tropical rain.
    How could the Caribbean prepare, begin to prepare itself 
for this reality that is going to impact the lives of people 
there, and our own lives here, given that we have large 
populations of folks from those nations? Are there any best 
practices or ideas of what the road map should be short-term 
and long-term for the Caribbean to prepare itself?
    Anybody can answer that. Yes, Ms. Goodman?
    Ms. Goodman. You know, we have been working through the 
Center for Climate and Security, and with other U.S. Federal 
agencies, and private sector and nonprofit partners, to develop 
plans for increasing Caribbean resilience, because we are aware 
that the combination of extreme weather events, combined with 
prolonged droughts, is making the region more fragile.
    And the agencies in the Caribbean, like CDEMA, the 
Caribbean Disaster Emergency Management Agency, and others, are 
very attentive to that and really want the technologies, and 
the innovation and ingenuity, that can be provided across the 
range of American universities and private sector entities.
    So, I think this is a very fruitful area to continue to 
push and advance partnerships, as we develop the capability to 
move from reliable weather predictions of 7 days into the 
seasonal and sub-seasonal forecasting. It is going to be very 
important in the Caribbean and elsewhere.
    Mr. Espaillat. Well, I would continue to hear from the rest 
of you but, of course, Mr. Connolly will not be very happy as 
he has already conceded his time. So, thank you. Perhaps I can 
hear from the rest of you in writing. Thank you so much.
    Chairman Engel. So, Mr. Espaillat, you are technically 
going to yield to Mr. Connolly or give Mr. Connolly his full 5 
minutes. Mr. Connolly.
    Mr. Espaillat. Well, I yield to my good friend and 
colleague Mr. Connolly.
    Mr. Connolly. I thank both the chair and my friend of New 
York. And thank you all so much for being here.
    Mr. Chairman, thank you for having this hearing. I think it 
is a critical hearing.
    And, Admiral McGinn, I was particularly pleased to hear you 
say I think essentially, look, the military are pragmatists. We 
have not got time for theoretical debates. And the fact of the 
matter is we are seeing the consequences of something. Call it 
climate change, call it whatever you want, but we have got to 
prepare for it.
    And I assume, Secretary Goodman, you, you would concur with 
that judgment?
    Ms. Goodman. Yes, absolutely. We need to lead by example.
    Mr. Connolly. That is right.
    Now, even in this Administration which continues officially 
to deny the science of climate change, in a January 2019 DoD 
report, of the 79--they looked at 79 installations. And in that 
report, two-thirds of those 79 installations were vulnerable to 
recurrent flooding; more than a half are vulnerable to drought; 
about a half are vulnerable to wildfires. And a lot of that 
clearly is a change, is it not?
    I would ask the two of you from a military perspective. We 
obviously did not build installations knowing they were at risk 
of flooding, drought, wildfires. Something has happened. 
Something has changed that makes a half to two-thirds of those 
installations vulnerable. Would that be a fair assessment?
    Mr. McGinn. It is. And it is primarily because the Earth is 
heating up, especially this great big heat sink called the 
ocean. You hear about El Nino or La Nina. And those effects put 
more energy into the atmosphere: stronger winds, upper air 
currents. They bring up much more water vapor. And the, the 
frequency and the intensity of storms that are in this air/
ocean interface caused by the wick being turned up, if you 
will, and temperature is going to be a continuing phenomenon. 
And it will affect a lot of coastal areas and, as we saw just 
in the past two hurricane seasons in the Caribbean and the East 
Coast, areas that are hundreds of miles inland as well.
    Mr. Connolly. Admiral--I am sorry. Ms. Goodman.
    Ms. Goodman. I would just add that what this means is that 
we can no longer fully rely on the historical record to predict 
what the future will bring.
    Mr. Connolly. Good point.
    Ms. Goodman. So, historic heat records, flooding, and storm 
patterns have changed, and they have shifted. And, so when you 
want a reset to become more resilient for the future you cannot 
just rely on the past. We need to look at the changing 
conditions.
    Mr. Connolly. One of the big changes, particularly 
affecting your service, Admiral, again, is of course the 
melting of ice sheets. So, in the Arctic you have got floating 
ice, and if it melts, it melts. It does not particularly 
displace water volume, right, because it is already counted 
floating on the water.
    But in the Antarctic and in Greenland, significant melting 
of ice sheets raises global sea levels, does it not?
    Mr. McGinn. It does in fact.
    Mr. Connolly. And what could go wrong with that from the 
Navy's point of view.
    Mr. McGinn. Well, I think rising sea levels affecting 
places like Norfolk Naval Station, Naval Air Station, Air Force 
bases in that Tidewater area are good examples. And, as Ms. 
Goodman pointed out earlier, even on sunny day flooding, king 
tides, et cetera, we are already dealing with that. So, 
increasing sea level rise because of ice sheets coming off of 
land masses is going to affect it.
    More in our present danger, if you will, is the intensity 
and the frequency of storms that cause tidal surge. That is not 
directly related to sea level rise. But when you have a 6 or 8 
or even 10 foot tidal surge, that is devastating in its power 
to wipe out infrastructure along the coast.
    Mr. Connolly. And, of course, we have the double phenomenon 
do not we in some of these coastal areas--you mentioned 
Norfolk--where we have rising sea level and we have subsidence 
of land. And the combination is really a problem.
    Mr. McGinn. So, location of critical back-up power systems, 
for example, are practical things that we can do. If you are 
going to deploy a data center you do not want to put it in the 
basement of a building. You know, you want to put it up on 
higher ground. You want to think through what is it going to be 
like when the wind is blowing, when the rain is falling 
sideways, and flooding is coming in, what are the things that 
have to work. And we can make those engineering and design 
changes starting now that will help us when it is bad.
    Mr. Connolly. I thank you all.
    And, Mr. Chairman, again, thank you so much for having this 
helpful hearing. I really appreciate it. I know the public does 
as well.
    Chairman Engel. Thank you, Mr. Connolly.
    Ms. Omar.
    Ms. Omar. Thank you, Chairman.
    I wanted to begin with a response to one of my colleagues 
earlier who is not here who had asked what was the percentage 
of displacement of people, what percentage it was due to 
disasters as opposed to conflict. And that percentage is 60 
percent according to the Internal Displacement Monitoring 
Center.
    We know that the global refugee crisis really is 
exacerbated, by climate change. And we do not need to look 
further from home. We know this is true. At least 400,000 
residents of New Orleans were displaced by Hurricane Katrina. 
And for but some, and disproportionately many of those people 
were black and they were permanently displaced.
    While climate change is making droughts and famines worse, 
it is making resources scarcer, making conflicts fiercer, and 
recession more brutal, our country is resettling historically 
low numbers of refugees. And citizens of some of the countries 
that have been hit hardest by climate change, including Yemen, 
and Iran, Somalia, are currently subject to an arbitrary and 
racist Muslim ban.
    So, Ms. Goodman, you mentioned in your testimony that your 
parents were refugees. And as you know, I myself am a refugee. 
Could you tell us a little bit about the importance of American 
leadership in refugee resettlement, especially from a national 
security perspective? Specifically, do you agree with me that 
it is in our Nation's security interests to respond to the 
global refugee crisis, much of which is caused by climate-
related factors, with more care than this President has done? 
And what might it look like to you?
    Ms. Goodman. Thank you, Congresswoman. Yes, my mother, who 
was a Holocaust refugee, and is sitting behind me today, would 
not be here but for the open arms of the United States. And, 
she was one of the fortunate few who was able to escape Germany 
in the 1930's.
    So, I fundamentally believe that it is important for 
America to be a refuge and to welcome those who are seeking 
shelter. That is not to say that we do not need immigration 
laws and border security. Of course we need that. But, we also 
need to welcome those in need, and particularly when we face 
the greatest wave of refugees since World War II today, many, 
as you have noted, are fleeing in part because of changes in 
climate and natural resource scarcities, in addition to seeking 
economic opportunity.
    Mr. Omar. Appreciate your response. It is one of the 
American values to see ourselves as a refuge. And I probably 
would not have survived if America did not open its arms to 
welcome my family.
    Mr. Weisenfeld, in your testimony you spoke about the 
particular vulnerabilities to climate change in the global 
south. We are seeing this right now with the terrible situation 
in Mozambique, Zimbabwe, and Malawi where more than 800 people 
have been killed by the cyclone Idai.
    There is also a cholera outbreak in Mozambique as a result 
of the cyclone that has affected more than 200 people.
    I wanted to read you a quote from a CNN article that was 
dated on March 31st. And, Chairman, I would love to submit that 
for the record.
    Chairman Engel. Without objection.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Omar. Graca Machel, a former Mozambique Minister of 
Education and Culture, said to CNN, ``This is one of the 
poorest places in the world which is paying the price of 
climate change provoked mostly by the developed world.''
    I tend to agree with her. The United States contributes 
disproportionately to the emission of green gases, trailed only 
China in recent years. So it seems to me quite obvious that our 
domestic consumption and domestic environmental policies are 
harming our national security by exacerbating the effects of 
climate change.
    Do you think it is fair to say that as a matter of national 
security we must take a concerned effort to cut out own green 
gas emissions? And is it fair to say that this should be an 
imminent and urgent priority for our country?
    Mr. Weisenfeld. Thank you very much for the question, 
Congresswoman. And thank you for highlighting the plight of the 
people in Mozambique and in the southern part of the world who 
are suffering from this.
    My experience is in the international development field. I 
am not someone who is very familiar with the issues of global 
carbon emissions. I would say that, I had the privilege earlier 
in my career to have served in Zimbabwe and have seen some of 
the areas that are subject to these floods. And I can recall 
back in the mid-'90's driving across Mozambique and seeing that 
it is in fact one of the poorest countries in the world.
    And it is a great tragedy of climate change that the 
countries that are the most fragile, where governments are the 
weakest, where communities are the most vulnerable are the ones 
who experience the greatest impact of climate change. And I 
firmly believe the U.S. people, as a country that is very 
generous, is deeply interested in investing in those areas and 
ensuring that we can take preventative actions using modern 
technologies to ensure that people have structures, and water 
efficiency, and understand water flow so that we can mitigate 
these impacts before they happen.
    Mr. Omar. Thank you. And I yield back.
    Chairman Engel. Thank you. That concludes today's hearing. 
I again thank all witnesses and all our members for their 
participation today.
    The committee stands adjourned.
    [Whereupon, at 12:23 p.m., the committee was adjourned.]

                                APPENDIX
                                
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
